<html>
<title> - ASSESSING THE STRENGTH OF HEZBOLLAH</title>
<body><pre>[Senate Hearing 111-700]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-700
 
                  ASSESSING THE STRENGTH OF HEZBOLLAH

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NEAR EASTERN AND 
                    SOUTH AND CENTRAL ASIAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 8, 2010

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html



                  U.S. GOVERNMENT PRINTING OFFICE
62-141                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ed8a9d82ad8e989e998588819dc38e8280c3">[email&#160;protected]</a>  


                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       BOB CORKER, Tennessee
BARBARA BOXER, California            JOHNNY ISAKSON, Georgia
ROBERT MENENDEZ, New Jersey          JAMES E. RISCH, Idaho
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHN BARRASSO, Wyoming
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
JEANNE SHAHEEN, New Hampshire        JAMES M. INHOFE, Oklahoma
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
              Frank G. Lowenstein, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                         ------------          

                SUBCOMMITTEE ON NEAR EASTERN AND        
                SOUTH AND CENTRAL ASIAN AFFAIRS        

          ROBERT P. CASEY, Jr., Pennsylvania, Chairman        

CHRISTOPHER J. DODD, Connecticut     JAMES E. RISCH, Idaho
RUSSELL D. FEINGOLD, Wisconsin       BOB CORKER, Tennessee
BARBARA BOXER, California            JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JOHNNY ISAKSON, Georgia
EDWARD E. KAUFMAN, Delaware

                              (ii)        

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Benjamin, Hon. Daniel, Coordinator for Counterterrorism, 
  Department of State, Washington, DC............................    11
    Joint prepared statement with Hon. Jeffrey Feltman...........     6
Casey, Hon. Robert P. Casey, Jr., U.S. Senator from Pennsylvania, 
  opening statement..............................................     1
Crocker, Hon. Ryan C., dean and executive professor, George Bush 
  School of Government and Public Service, Texas A&M University, 
  College Station, TX............................................    24
    Prepared statement...........................................    26
Feltman, Hon. Jeffrey, Assistant Secretary of State for Near 
  Eastern Affairs, Department of State, Washington, DC...........     4
    Joint prepared statement with Ambassador Daniel Benjamin.....     6
    Responses to questions submitted for the record by Senator 
      James E. Risch.............................................    48
Norton, Augustus Richard, professor of anthropology and 
  international relations, Department of International Relations, 
  Boston University, Boston, MA..................................    34
    Prepared statement...........................................    37
    Responses to questions submitted for the record by Senator 
      James E. Risch.............................................    53
Pletka, Danielle, vice president, foreign and defense policy 
  studies, American Enterprise Institute, Washington, DC.........    28
    Prepared statement...........................................    31

                                 (iii)

  


                  ASSESSING THE STRENGTH OF HEZBOLLAH

                              ----------                              


                         TUESDAY, JUNE 8, 2010

                           U.S. Senate,    
           Subcommittee on Near Eastern and
                   South and Central Asian Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert P. 
Casey (chairman of the subcommittee) presiding.
    Present: Senators Casey, Shaheen, Kaufman, Corker, and 
Risch.

        OPENING STATEMENT OF HON. ROBERT P. CASEY, Jr.,
                 U.S. SENATOR FROM PENNSYLVANIA

    Senator Casey. We will get started.
    Thank you very much, everyone, for being here. We are 
trying to start relatively close to on time. I think we are 
right on time.
    We are grateful for your presence here, especially the 
members of both panels. I told the panelists before we began 
that we are going to try to keep each panel within that 1-hour-
per-panel timeframe if we can do that, and I think we should be 
able to.
    But today, the Senate Foreign Relations Committee 
Subcommittee on Near Eastern and South and Central Asian 
Affairs meets to examine the grave implications of Hezbollah's 
mounting political and military strength in Lebanon. Many 
experts say that Lebanon, with its deep sectarian struggles, is 
a bellwether for the political-religious balance of power in 
the Middle East.
    Hezbollah's activities have a direct impact on broader 
United States interests in the region, including inspiring 
militancy, threatening regional stability, and complicating 
prospects for a peace settlement between Israel and the 
Palestinians. Finally, we will consider policy options for the 
United States and others to strengthen the Lebanese Government 
so that it can fully control its territory.
    As we meet here today, Hezbollah is stronger than it has 
ever been, politically and, of course, militarily, and its 
growing strength poses a direct threat to stability in the 
region. Against the backdrop of rising tensions in the region, 
it is critically important that this committee and the 
subcommittee conduct a thorough examination of these issues.
    During Prime Minister Hariri's visit to Washington last 
month, President Obama reaffirmed the United States commitment 
to strengthening Lebanon's sovereignty and independence. 
Lebanon is a key front line for pro-Western moderates who are 
battling advocates of the Syria-Iran resistance model. 
Lebanon's southern frontier is one of the most volatile borders 
in the Middle East. This tense area can easily devolve into 
conflict, sparked by a perceived or real provocation or by 
Hezbollah's avowed retaliation for the 2008 assassination of 
its intelligence chief.
    From the inception of Hezbollah--from the very beginning in 
the 1980s to the present--the elimination of the state of 
Israel has been one of the organization's primary goals. At the 
same time, Iran continues to transfer weapons to Hezbollah in 
violation of U.N. Security Council Resolution 1701. And 
Hezbollah continues and gives the Iranian regime a dangerous 
proxy that seriously threatens United States interests as well 
as, of course, Israel's existence. Last November, Israel 
intercepted a ship carrying hundreds of tons of Iranian weapons 
intended for Hezbollah.
    Thus, among the most pressing concerns is Hezbollah's 
refusal to disarm, as called for in the 1989 Taif Accord that 
ended the Lebanese civil war and more recently in U.N. Security 
Council Resolutions 1559 and, again, 1701. The substantial 
demilitarization, if not the complete disarmament, of Hezbollah 
is required to transform Lebanon from a perpetually war-torn 
society and geopolitical pawn into a durable 21st century 
state. As long as Hezbollah is armed, the group can dominate 
Lebanon through threat of force.
    Just 4 years after its 34-day war with Israel, Hezbollah's 
military capabilities today are more robust than ever. With the 
help of Iran and Syria, its arsenal has become more 
sophisticated and more lethal. During the 2006 conflict, 
Hezbollah fired approximately 4,000 rockets--4,000 rockets--
into Israel, killing 44 Israeli citizens. Furthermore, it 
retains military superiority to Lebanon's armed forces. In 
April, Defense Secretary Gates said Hezbollah had, and I quote, 
``far more rockets and missiles than most governments in the 
world.''
    We must never forget that Hezbollah and its affiliates have 
planned or have been linked to numerous attacks against the 
United States, Israel, and other Western targets, including the 
bombings in 1983 of the United States Embassy in Beirut and the 
U.S. Marine barracks, which together killed 200 Marines and 58 
other Americans. There are reports that Hezbollah was involved 
in training Shia militias in Iraq which carried out attacks 
against United States forces.
    Hezbollah's political authority in Lebanon also has risen. 
Under Secretary General Nasrallah's leadership, Hezbollah has 
become a significant part of Lebanon's political fabric. 
Unfortunately, Nasrallah has inspired many in the Arab world to 
regard Hezbollah as a legitimate resistance movement, which 
propagates militancy.
    Last November, 5 months after Lebanon's parliamentary 
elections and subsequent intense political infighting, Prime 
Minister Hariri agreed to share power with Hezbollah and its 
allies. Shortly thereafter, Hezbollah won a significant 
political victory by acquiring a veto power in the government 
because it acquired control over a ``blocking third'' number of 
Cabinet positions. Additionally, the Parliament passed a bill 
that effectively allows Hezbollah to keep its weapons.
    Its relative political strength and formidable arsenal 
makes Lebanon's political future uncertain. The nature of the 
role that Hezbollah will play in that future and in Lebanon's 
security arrangements are the focus of intense public debate in 
the country. Most, I should say, Lebanese want a normalized 
Lebanon, freed from the role of being a client state and 
relieved of the threat of a formidable private militia.
    That said, there are significant pockets of support for 
Hezbollah in parts of Lebanese society, which sends a strong 
message of hostility to Israel. That unyielding hostility to 
Israel suggests that irreconcilable differences could emerge 
within Lebanon's leadership, particularly if the resolution of 
outstanding Lebanese or Syrian disputes with Israel over 
specific territories improves the prospects for bilateral peace 
agreements.
    The United States must continue to play an active role in 
strengthening the domestic societal and security elements of 
the Lebanese Government. We look forward to hearing whether our 
witnesses believe that United States aid to Lebanon, including 
the administration's $136 million request for foreign 
assistance in the fiscal year 2011 budget, is sufficient to 
bolster the capabilities of the Lebanese Armed Forces and the 
Internal Security Forces.
    Since fiscal year 2006, the United States has invested over 
$690 million in these programs. If Lebanon is to complete its 
long transition to a tolerant political system, the system it 
was before its civil war, the elected government and security 
forces will have to supplant Hezbollah as the prevailing source 
of security in the country. As we provide direct aid to 
Lebanon, we must ensure that United States arms are secure and 
do not make their way into Hezbollah's arsenal.
    With the shift of power inside Lebanon toward Hezbollah, it 
is important, and more important than ever, that we decide what 
our redlines are in terms of United States military equipment. 
At the same time, the United States must fully explore what we 
are up against in Lebanon by examining the roles of Syria and 
Iran in strengthening Hezbollah.
    We are grateful today and we are honored to be joined by 
two distinguished panels to help us assess these issues and 
evaluate policy options. On the first panel, we welcome 
Ambassador Jeffrey Feltman, Assistant Secretary of State for 
Near Eastern Affairs, and Daniel Benjamin, Counterterrorism 
Coordinator at the Department of State.
    Our second panel, we welcome three witnesses from the 
private sector. First, Ambassador Ryan Crocker, who recently 
retired from the Department of State after 39 years--he doesn't 
look like it was that long--of public service, serving as 
Ambassador in five countries in the Middle East, including 
Lebanon and Syria, and I should also mention Iraq. That is 
where one of the first times I had a chance to meet him. He is 
now dean and executive professor of the George Bush School of 
Government and Public Service at Texas A&M University.
    Second, Dr. Augustus Richard Norton, professor of 
international relations and anthropology at Boston University, 
is here with us as well. He is an expert on Lebanon's Shia 
community and, as well, Hezbollah.
    And finally, Danielle Pletka. She is a vice president of 
foreign and defense policy studies at the American Enterprise 
Institute and is an analyst on the region's complex politics 
and also a former Senate Foreign Relations staffer. Am I 
correct? That is correct. OK. Welcome back.
    So we thank our witnesses, and we look forward to their 
insights. And I at this time would like to turn to Senator 
Corker, if he has any opening comments?
    Senator Corker. I am far more interested in our witnesses, 
and thank you for being here. Thank you for your service, too.
    Senator Casey. And I want to thank Senator Corker for being 
with us. We will have others joining us as the hearing 
proceeds.
    We will turn now to the opening statements from our 
witnesses. I encourage you to keep your remarks we always say 
brief and succinct. We have a gavel. We try not to use it. But 
we don't want to go too long.
    You should know, and the range we are talking about is 5 to 
7 minutes, but your whole statement will be made part of the 
record. So you don't have to read all of it, and if it is 
particularly long, we don't want you to read all of it because 
of those time constraints. We will get to explore some of the 
issues you may not be able to cover in your opening by way of 
questions.
    So, Ambassador Feltman, would you like to begin?

STATEMENT OF HON. JEFFREY FELTMAN, ASSISTANT SECRETARY OF STATE 
 FOR NEAR EASTERN AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Feltman. Chairman Casey, Senator Corker, thanks 
for inviting Ambassador Benjamin and me to testify today on 
this important topic.
    Hezbollah is an issue that I have been following closely, 
particularly since I was confirmed as U.S. Ambassador to 
Lebanon in summer of 2004, a position I held until late January 
2008. The joint testimony that we wish to submit for the record 
goes into some detail regarding the threats that Hezbollah 
poses for Israel, for Lebanon, for the region, for our 
interests, and it also discusses a number of steps that the 
United States is taking to counter these threats.
    But I would like to use my opening statement to cite a 
couple of specific examples of Hezbollah's behavior that I 
witnessed when I was Ambassador to Beirut. I think that these 
examples will demonstrate both the pernicious role of Hezbollah 
inside Lebanon, but also the fact that Hezbollah is neither 
infallible nor invincible.
    The first example is one that you cited, Mr. Chairman, 
Hezbollah's 2006 war with Israel. That war broke out in July 
2006 when Hezbollah assailants crossed the U.N.-delineated 
border between Lebanon and Israel, killing five Israeli 
soldiers and kidnapping two. Now, this was not the first time 
that Hezbollah had attempted to do something like this. In 
November 2005, the previous year, Hezbollah had a similar plot 
that Israel, in fact, foiled.
    But it is worth remembering that just 3 weeks before this 
July 2006 war was kicked off, Hamas had done something similar 
in Gaza. Hamas operatives had crossed into Israel, captured the 
soldier, Gilad Shalit, who they continue to hold, and Israel 
reacted very strongly.
    I, as Ambassador, went to Lebanese political leaders inside 
the government, outside the government, across the political 
spectrum, and I said, my gosh, look at Israel's reaction to 
what Hamas did. Imagine if Hezbollah had succeeded back in 
November, a few months earlier, in kidnapping those soldiers it 
tried to do. Imagine what would have happened to Lebanon. All 
the Lebanese political leaders who I saw, despite their 
political leanings, agreed with me. It would have been a 
catastrophe for Lebanon.
    Nevertheless, a few weeks later, Hezbollah did launch a 
raid, less than a month after Shalit had been captured, and 
dragged Lebanon into a bloody conflict in which many civilians 
lost their lives, infrastructure destroyed, et cetera. Now, 
afterward, Hezbollah claimed that that 2006 war was ``divine 
victory.'' But I doubt that many Lebanese would agree.
    In fact, Hezbollah Secretary General Hassan Nasrallah later 
had to issue a begrudging sort of apology on national 
television. He disingenuously stated that had he anticipated 
Israel's reaction, he would not have ordered the kidnapping. 
Moreover, as a direct result of that war in 2006, Hezbollah 
lost its direct line of attack against Israel.
    Before the war, Hezbollah routinely launched rocket, mortar 
attacks across the blue line into Israel or into Shebaa Farms 
sort of as a show of strength, a show of control. But today, by 
contrast, south Lebanon hosts more than 11,000 UNIFIL troops, 
plus thousands of Lebanese Armed Forces.
    U.N. Security Council Resolution 1701, which ended that 
conflict in 2006, continues to enjoy popular and political 
support in Lebanon. So what does this mean? What it means is 
that Hezbollah cannot easily renew its patterns of attacks 
across the blue line into Israel. If it did so, it would do so 
at considerable political cost inside Lebanon.
    And so, for nearly 4 years now, not a single civilian on 
either side of the blue line has been killed through active 
military or hostile acts. Now, without minimizing the real 
dangers that Hezbollah poses, I note that southern Lebanon and 
northern Israel have not had such stability and security in 
decades.
    Second example I will cite briefly is Hezbollah's 
intentional crippling of Lebanese constitutional institutions 
in the 2006-2008 period. As you know, as a result of the 2005 
Lebanese elections, a new Lebanese Government was formed with a 
proindependence majority and a mandate in support of Lebanese 
sovereignty. Hezbollah, in fact, joined that national unity 
government.
    Yet a little more than a year later, in November 2006, 
Hezbollah, dragging its allies with it, cited a procedural 
pretext to withdraw from that government. Hezbollah expected 
the government to collapse. It didn't.
    So what did they do next? They launched a massive sit-in, 
starting in December 2006, again expecting the Cabinet to 
resign. It did not.
    They then blocked the Lebanese Parliament from meeting. 
They blocked an election of a Lebanese President, all expecting 
people to blink. They didn't.
    Ultimately, in May 2008, to counter Cabinet decisions it 
saw as threatening, Hezbollah had to do what Hassan Nasrallah 
had sworn Hezbollah would never do, which is turn its arms 
against the Lebanese people, the very people Hezbollah claimed 
to be defending. In essence, Hezbollah used force to assert a 
right to veto any government decision against its interests 
while refusing any public accountability or oversight of its 
own interests.
    It is a sad reality, but there are real political costs to 
Hezbollah force behavior. The Lebanese people have not 
forgotten the 2006 war, nor the events of 2008 in May.
    If you measure how Hezbollah and especially its allies have 
fared in elections at all levels, you see erosions and 
limitations. I am talking about municipal elections, syndicate 
elections, student elections, and even parliamentary elections. 
Erosion particularly in the political strength of Hezbollah's 
primary Christian ally and limitations to the attractiveness of 
Hezbollah's message to Lebanese more broadly.
    The Obama administration is firmly committed to supporting 
the Lebanese people and the strength of Lebanon's democratic 
institution, including Lebanon's legitimate security forces 
that you mentioned, Chairman, the LAF, and the ISF. Our 
diplomatic engagement with Syria or any other party will not 
come at Lebanon's expense.
    We will continue to support Israel's right to defend 
itself, and we will continue to take measures to inhibit and 
counter Hezbollah's strength and capabilities. We will continue 
energetically in pursuing a comprehensive peace in the region 
because accomplishing this is in our own vital national 
interest, as well as in the interest of the region and the 
world.
    I want to thank the committee for its support of this 
important work, including your vote to send Ambassador Robert 
Ford's nomination to the full Senate for confirmation. And I 
thank the committee again for holding this hearing.
    I look forward to your questions.
    [The joint prepared statement of Ambassador Feltman and 
Ambassador Benjamin follows:]

 Joint Prepared Statement of Ambassador Jeffrey D. Feltman, Assistant 
  Secretary of State for Near Eastern Affairs, and Ambassador Daniel 
   Benjamin, Coordinator for Counterterrorism, Department of State, 
                             Washington, DC

    Chairman Casey, members of the subcommittee, thank you for the 
invitation to appear before you today to discuss Hezbollah. We share 
this committee's deep concerns about the threats posed by this 
terrorist group, its activities, and the support and direction it 
receives from outside actors. We look forward to discussing Hezbollah's 
position within Lebanon, its destabilizing role in the country and the 
wider region, and our ongoing efforts to promote the sovereignty and 
independence of the state of Lebanon, as well as peace and stability in 
the broader Middle East.
    Hezbollah's persistence as a well-armed terrorist group within 
Lebanon, as well as its robust relationships with Iran and Syria, and 
the transfer of increasingly sophisticated missiles and rockets to 
Hezbollah, threaten the interests of the United States, Lebanon, and 
our partners in the region, especially Israel. Our ongoing efforts to 
counter those threats include cutting off terrorism financing and 
interdicting illicit arms shipments, as well as bilateral and 
multilateral diplomatic efforts aimed at ending those arms transfers 
and supporting the legitimate Government of Lebanon. We have warned 
Syria directly about the potential consequences of these destabilizing 
actions. Most importantly, we are working to achieve a comprehensive 
peace in the region, centered on a two-state solution to the Israeli-
Palestinian conflict. To be successful, this comprehensive peace needs 
to include a solution to the problem of Hezbollah's weapons and 
hostility. A comprehensive peace by definition must also include 
Lebanon and Syria as full partners.

                    A THREAT TO LEBANON'S INTERESTS

    Lebanon is a state with a vibrant civil society; however, its 
people also have a history of relying on sectarian and community 
leaders. Over the years, this tradition of political decentralization 
has inhibited the rise of strong state institutions and a truly 
unifying sense of national citizenship. Hezbollah has exploited this 
environment and managed to attract popular support among segments of 
the population that have felt traditionally neglected by a weak state 
or particularly vulnerable to threats from within and outside the 
country.
    Hezbollah attempts to portray itself as a natural part of Lebanon's 
political system and a defender of Lebanese interests. But its actions 
demonstrate otherwise. Hezbollah has demonstrated repeatedly its 
unwillingness to adhere to the rule of law and submit to the Government 
of Lebanon's legitimate authority. The group's maintenance of a large 
and potent militia; its repeated use of force, including against 
Lebanese civilians and civilians of other nationalities; its ongoing 
violation of United Nations Security Council Resolution (UNSCR) 1701; 
and its refusal to comply with the disarmament called for in both the 
Taif Accord and UNSCR 1559, render it a dangerous and destabilizing 
player in Lebanon and in the region. Hezbollah continues to pursue its 
interests and those of its chief outside sponsor, Iran, by manipulating 
the Lebanese political system to protect its own power. Hezbollah 
refuses any public oversight or accountability of its activities, which 
have plunged Lebanon into war in the past and could do so again, while 
at the same time Hezbollah demands the right to veto decisions taken by 
the Lebanese Government.
    Hezbollah remains the most technically capable terrorist group in 
the world and a continued security threat to the United States. 
Hezbollah is responsible for some of the deadliest terrorist attacks 
against Americans in history, and the United States has designated it 
as a Foreign Terrorist Organization since 1997. While we recognize that 
Hezbollah is not directly targeting the United States and U.S. 
interests today, we are aware that could change if tensions increase 
with Iran over that country's nuclear program. The administration has 
also reiterated that it will not deal with or have any contact with the 
terrorist organization.
    There has been much debate over the political identity of 
Hezbollah, as well as the prospects for Hezbollah to become a 
legitimate political party within Lebanon. Following Lebanon's bloody 
civil war, other militias disbanded or were integrated into Lebanon's 
legitimate defense force, the Lebanese Armed Forces (LAF). However, 
despite the group's rhetoric and political campaigning, there remains 
today no meaningful distinction between the military and political 
wings of Hezbollah, as Hezbollah's own leaders regularly acknowledge 
publicly.
    Should Hezbollah truly desire to join the ranks of Lebanon's other 
political groups in its democratic system, its path would be clear: it 
would fully disarm, like all other militias, renounce terrorism and 
political intimidation, and acknowledge the authority of the Government 
of Lebanon (GOL) and that government's right, like other governments, 
to a monopoly on the use of force. Under those circumstances we could 
reconsider the group's status. Make no mistake, these are significant 
hurdles and we have seen no indication to date that Hezbollah is ready 
to take these steps. The fact that Hezbollah is not willing to take 
these steps reveals its real motivations: since we have no doubt that 
Hezbollah could remain a powerful political voice inside Lebanon even 
without maintaining arms that violate Security Council Resolutions and 
endanger Lebanon, its refusal to forswear violence and pursue its 
interests through political means demonstrates that its agenda is not 
purely Lebanese.
    As we noted above, unlike other Lebanese groups that currently seek 
to play a productive role in Lebanon's political system, Hezbollah is 
the lone militia that refused to disarm following the signing of the 
Taif Accord, which marked the end of Lebanon's tragic civil war. Even 
following the ``Cedar Revolution'' of 2005, when the Lebanese people 
turned out in droves to reassert Lebanon's full independence and 
sovereignty, culminating in the withdrawal of Syrian forces, Hezbollah 
has remained in open defiance of the legitimate authority of the 
Lebanese Government, even when it has been part of the same government. 
In March 2005, as other Lebanese were preparing for the massive March 
14 Cedar Revolution in reaction to the shocking murder of Rafiq Hariri, 
Hezbollah actually hosted a counterdemonstration, in defiance of 
Lebanese public opinion, to thank and show its appreciation for Iran 
and Syria. Hezbollah's arsenal of illegal weapons poses a clear and 
present danger to the security of Lebanon and the region. Its actions 
belie the ``resistance'' rhetoric that it is fond of repeating.
    One need only look to the disastrous 2006 conflict, precipitated by 
Hezbollah's kidnapping of Israeli soldiers from across the Blue Line in 
indisputably Israeli territory, to see that its arms and aggressive 
action are a source and motivator for violence in the immediate region. 
Hezbollah's maintenance of arms caches in Southern Lebanon, in clear 
violation of UNSCRs 1701 and 1559, demonstrates that Hezbollah seeks to 
project its military power in destabilizing fashion. In the 2006 case, 
Hezbollah, without consultation or approval of even its electoral 
allies, unilaterally chose to take actions that dragged the country 
into an agonizing and destructive conflict. Hezbollah's actions 
highlighted the impotence of the words of its primary Christian ally, 
Michel Aoun, who struggled to justify his controversial February 2006 
Memorandum of Understanding (MOU) with Hezbollah by saying that, with 
this MOU, Hezbollah accepted limits to its use of its arms.
    Even more striking than the external conflict instigated by 
Hezbollah are the events of May 2008. In trying to mask its Iranian 
agenda, Hezbollah had regularly insisted that its arms would never be 
used against the Lebanese people. Yet in May 2008, Hezbollah did 
exactly that, attacking Lebanese citizens--the very people it claims to 
protect--in order to protest decisions of the Lebanese Government with 
which it disagreed. Using force to settle domestic political disputes 
clearly distorts and perverts Lebanon's democracy.
    Despite the devastating effects of its 2006 war with Israel and the 
2008 domestic conflict in Lebanon, which Hezbollah initiated, Hezbollah 
remains today one of the best armed and most dangerous militias in the 
world. Its capabilities exceed those of the legitimate Lebanese 
security services and the United Nations Interim Force in Lebanon 
(UNIFIL). UNSCR 1701 called for the establishment of a weapons-free 
zone in South Lebanon that UNIFIL and the Lebanese Armed Forces (LAF) 
are actively working to implement. However, we believe that, in 
addition to its increased activities outside of UNIFIL's area of 
operations, Hezbollah continues to maintain weapons caches in the south 
and is actively seeking additional armaments.
    Hezbollah also claims publicly to have reconstituted and improved 
its arsenal since the 2006 war. As Lebanon has no domestic arms 
industry, this would have undoubtedly been accomplished by means of 
smuggling activity via Syria and Iran. In 2008 alone, Iran provided 
hundreds of millions of dollars to Hezbollah and trained thousands of 
Hezbollah fighters at camps in Iran. Iran continues to assist Hezbollah 
in rearming, violating Security Council Resolution 1701. Iran also has 
been found to be in violation of UNSCR 1747, which prohibits it from 
exporting arms and related materiel. In 2009, U.N. Member States 
reported to the U.N.'s Iran Sanctions Committee three instances in 
which Iran was found to be transferring arms or related materiel to 
Syria, a regional hub for Iranian support to terrorist groups, such as 
Hezbollah. A number of media reports also have noted that Hezbollah 
continues using weapons depots in Syria to store its arms before 
transferring them into Lebanon. While Hezbollah no longer maintains an 
overt militia presence in southern Lebanon--the absence of an overt 
militia presence being a direct product of Security Council Resolution 
1701--it has strengthened its militia infrastructure immediately north 
of the Litani River and in the Biqa' Valley since 2006.
    While Iran continues to provide a significant portion of 
Hezbollah's funding, Hezbollah has also broadened its sources of 
financial support in recent years. Hezbollah is now heavily involved in 
a wide range of criminal activity, including the drug trade and 
smuggling. It also receives funds from both legitimate and illicit 
businesses that its members operate, from NGOs under its control, and 
from donations from its supporters throughout the world. Hezbollah also 
has established its own commercial and communications networks outside 
the Lebanese legal system that in essence rob the Lebanese treasury of 
the tax revenues that would come via legitimate licensing, 
registration, and tax reporting.

                   A THREAT TO THE REGION'S INTERESTS

    Hezbollah's destabilizing actions also have a global reach. The 
recent conviction of a Hezbollah cell in Egypt for spying, plotting 
attacks on resorts frequented by tourists, and arms smuggling 
illustrates Hezbollah's growing regional reach and ambitions. In Iraq, 
we are also aware of Hezbollah providing training and other support to 
Shia militant groups. As of early 2007, an Iran-based individual by the 
name of Abu Mahdi al-Muhandis formed a militia group, employing 
instructors from Hezbollah to prepare this group and certain Jaysh al-
Mahdi Special Groups for attacks against Coalition Forces in Iraq.
    Hezbollah's web also extends to Europe and diplomatic missions 
abroad, where Hezbollah planned to attack the Israeli Embassy in Baku. 
While this attack was foiled, and the perpetrators are now imprisoned 
in Azerbaijan, these actions illustrate the group's continued disregard 
for the rule of law, both inside Lebanon and outside its borders.
    We must also recognize that the ever evolving technology of war is 
making it harder to guarantee our partners' security. Despite efforts 
at containment, rockets with better guidance systems, longer range, and 
more destructive power are spreading across the region, with many in 
the hands of nonstate actors accountable to no one. Reports that Syria 
transferred SCUD-class missiles to Hezbollah are deeply troubling; 
these destabilizing developments increase the risks of miscalculation 
and the possibility of hostilities.
    On May 25 this year, Hassan Nasrallah, Hezbollah's leader, gave a 
speech proclaiming for the first time that Hezbollah will target 
Israeli and Israel-bound military and commercial vessels if Israel 
initiates offensive action against Lebanese ports or undertakes a naval 
blockade of Lebanon in a future conflict. Hezbollah also has made a 
number of threats and claims recently about the expanding range of its 
arsenal, with Nasrallah stating that Hezbollah has the capability to 
hit Ben Gurion airport.
    The Obama administration is committed to ensuring Israel's security 
and helping Israel to defend itself. The United States and Israel 
cooperate closely on security issues. On an ongoing basis, both 
countries participate in joint military planning, combined exercises 
and training, and collaborate on military research and weapons 
development.
    The United States also cooperates extensively with Israel on 
ballistic missile defense to ensure Israel is protected against missile 
threats. We are working with Israel to further develop the Arrow 
Weapons System, the David's Sling system to defend against short-range 
rocket and missile threats, and the X-Band radar to provide early 
warning and interceptor integration capabilities. Additionally, our 
biannual military exercise ``Juniper Cobra'' is the largest joint-
military exercise on missile defense. The Obama administration also 
committed to provide $205 million in additional funding to help Israel 
field the Iron Dome short-range missile defense system.

                          AN OBSTACLE TO PEACE

    Time and again, we have seen that Hezbollah's weapons and Syria's 
support for its role as an independent armed force in Lebanon are a 
threat, both to Lebanon and Israel, as well as a major obstacle to 
achieving peace in the region.
    Hezbollah exploits the ongoing Arab-Israeli conflict to bolster its 
own interests and influence. The group claims to maintain arms in order 
to defend Lebanon from Israeli ``aggression'' and derives much of its 
popularity from its image as a ``resistance'' group. In truth, 
Hezbollah is actively using the conflict with Israel in order to gain 
regional popularity and justify its vast arsenal, acting as a point of 
leverage in the region for Iran. One of Hezbollah's rhetorical points 
regards Israeli overflights of Lebanese territory. The U.N. Secretary 
General has cited in his reports on UNSCRs 1559 and 1701 that these 
overflights are a violation of UNSCR 1701, a resolution which we are 
all committed to seeing fully implemented. Yet there is an unmistakable 
connection between these overflights and Hezbollah's blatant and 
ongoing efforts to evade the arms embargo that is the essence of UNSCR 
1701; Hezbollah's activities create the very conditions that Hezbollah 
then uses as a pretext to justify its own destabilizing behavior, 
putting Lebanon at severe risk.
    The Obama administration's efforts to defuse tensions and to 
achieve a comprehensive peace in the Middle East--defined as peace 
between Israel and the Palestinians, and between Israel and all its 
neighbor states--would, if successful, deal a significant blow to 
Hezbollah and its sponsor in Tehran.
    Comprehensive regional peace has a special meaning in the context 
of Lebanon, where, for decades, the absence of peace has facilitated 
the operation of many organizations whose interests are not Lebanese. 
In the 1980s, Hezbollah took root with the vital assistance of Iranian 
money, training, weaponry and political support. Although Israel's 
withdrawal from Lebanese territory in 2000--withdrawal certified as 
complete by the United Nations--should have put an end to Hezbollah's 
claims to be resisting foreign occupation, Hezbollah has been able to 
manipulate weaknesses in Lebanon's domestic political structures to 
preserve the pretense of resistance. While the United States believes 
firmly that, in compliance with the territorial obligations of UNSCR 
1701, Israel must withdraw its forces from northern Ghajjar, reoccupied 
during the 2006 conflict, the primary stumbling block to peace and 
stability between Israel and Lebanon is Hezbollah's arsenal and proven 
willingness to use it.
    We understand clearly that a comprehensive peace cannot come at the 
expense of Lebanese interests, and we understand fully the sensitivity 
of the issue of the Palestinian refugees in Lebanon who yearn for, and 
deserve, a viable state of Palestine that they can call home. But 
Hezbollah's arms and defiance of the international community take us 
further away from, not closer to, the comprehensive peace that is 
envisioned in the groundbreaking Arab Peace Initiative, supported 
unanimously by the Arab League and announced in Beirut in 2002. By 
contrast, Iran and Hezbollah have a very different vision and show no 
signs of accepting Israel's right to exist.

                            THE PATH FORWARD

    Hezbollah's insistence on remaining armed, aggressive, and 
unaccountable threatens important American interests and goals--
especially our interests in Middle East peace and regional security, in 
containing the spread of destabilizing weapons and terror financing, 
and in a strong, democratic, and independent state of Lebanon.
    The United States is committed to strengthening the Government of 
Lebanon and its institutions. Our support to the Lebanese Armed Forces 
(LAF) and Internal Security Force (ISF) is part of an international 
commitment to help bolster Lebanon's legitimate security services at 
the request of the Lebanese Government. Since 2006, we have committed 
more than $600 million to the LAF and ISF out of a conviction that the 
Lebanese army and police should provide protection for Lebanon's 
people. As demonstrated through their successful domestic 
counterterrorism operations, the operational improvements in the LAF 
and ISF as a result of U.S. military and security assistance have been 
significant thus far and have great potential for growth. The Lebanese 
state must be prepared, in terms of its institutions and capabilities, 
for that day when comprehensive peace is achieved; our assistance to 
the LAF and ISF needs to be seen in terms of that long-term investment. 
Moreover, the United States provides assistance and support in Lebanon 
that work to create alternatives to extremism, reduce Hezbollah's 
appeal to Lebanon's youth, and empower people through greater respect 
for their rights and greater access to opportunity. Through USAID and 
the Middle East Partnership Initiative (MEPI), we have contributed more 
than $500 million to this effort since 2006. These robust assistance 
programs represent one facet of our unwavering support for the Lebanese 
people and a strong, sovereign, stable, and democratic Lebanon. Since 
2006, our total assistance to Lebanon has now exceeded $1 billion. If 
we let down the millions of Lebanese who yearn for a state that 
represents the aspirations of all Lebanese, we would create the 
conditions by which Hezbollah can, by filling a vacuum, grow even 
stronger.
    The United States cooperates directly with international partners 
to constrict Hezbollah's range of action and impede its ability receive 
and transfer funds. Hezbollah's network of financial support knows no 
borders, with active operations in many places around the globe, 
including Africa, the Middle East, Europe, and Latin America. In 
addition to the Department of State's designation of Hezbollah as an 
FTO, the Department of the Treasury's Office of Foreign Assets Control 
(OFAC) has used Executive Order 13224, which was issued soon after the 
September 2001 attacks to bolster the U.S. Government's capability to 
target terrorists' financial networks, to target Hezbollah's global 
financial support system. A wide range of individuals and entities that 
are controlled by or affiliated with Hezbollah have been designated 
under the EO. Financial institutions around the world pay close 
attention to these designations. The entities that OFAC has targeted 
include banks and financial front companies operating in Lebanon and 
elsewhere, such as Bayt al-Mal and the Yousser Company; Hezbollah-
linked NGOs including The Goodwill Charitable Organization, a 
fundraising office established indirectly by the Martyrs Foundation in 
Lebanon; Hezbollah's construction company, Jihad al-Bina; and 
individuals like Abd Al Menem Qubaysi, a Hezbollah supporter based in 
West Africa; Ghazi Nasr al Din and Fawzi Kan'an, two Venezuela-based 
supporters of Hezbollah; and the Barakat network of 10 individuals in 
the tri-border region of Latin America.
    The United States has also taken action against Iranian entities 
that are involved in funding and supporting Hezbollah. Perhaps most 
importantly, in 2007 the U.S. Government designated Iran's Quds Force, 
the terrorist wing of Tehran's Islamic Revolutionary Guard Corps, which 
has provided extensive support, equipment and training for Hezbollah. 
The year prior, the United States designated one of the largest Iranian 
state-owned banks, Bank Saderat, for transferring funds to Hezbollah 
and Palestinian rejectionist groups. From 2001-2006, for example, Bank 
Saderat was used by the Iranian Government to provide at least $50 
million to Hezbollah. Hezbollah has used Bank Saderat to transfer 
funds, sometimes in the millions of dollars, to support the activities 
of other terrorist organizations, such as Hamas in Gaza.
    From his earliest days in office, President Obama has put the 
difficult work of pursuing a comprehensive peace in the region at the 
top of his administration's agenda. The status quo strengthens 
rejectionists like Hezbollah who claim peace is impossible, and it 
weakens those who would accept coexistence. All of our regional 
challenges--confronting the threat posed by Iran, combating violent 
extremism, promoting human rights and economic opportunity--become 
harder if the rejectionists grow in power and influence.
    Leading our efforts, Senator George Mitchell has been working 
diligently with the parties to build the atmosphere that can produce a 
negotiated resolution to the conflict. We are encouraging Israel to 
continue building momentum toward a comprehensive peace by respecting 
the legitimate aspirations of the Palestinian people, stopping 
settlement activity, and addressing the humanitarian needs in Gaza. We 
are encouraging the Palestinians to do their part by continuing to 
ensure security, reform their institutions of governance, and end 
incitement. Regional states who must be concerned about the 
destabilizing impact of extremist groups like Hezbollah and Hamas must 
do more to bolster the efforts of the Palestinian Authority (PA) under 
President Abbas and Prime Minister Fayyad. The PA's institution-
building plans deserve and require continued financial support, and the 
United States will continue to be a substantial donor. It is also in 
the interest of Arab States to advance the Arab Peace Initiative with 
actions, not just rhetoric.
    Our goal of a comprehensive peace also requires that we work to 
resolve the conflicts between Israel and Syria and Israel and Lebanon. 
Through diplomacy and through Special Envoy Mitchell's efforts, we are 
actively seeking to restart peace negotiations between Israel and 
Syria, and to bring Syria to play a more positive role in the region. 
We are determined to try to build a constructive relationship with 
Syria, one in which Syria and the United States can be partners in 
support of that comprehensive peace. Given the differences between 
Syria and the United States, this will not be an easy or quick process. 
But, in light of our national interests in a comprehensive regional 
peace, we are working with the Syrians in a step-by-step process that 
we hope will build trust and create momentum.
    We thank members of this committee for expeditiously voting 
Ambassador Ford out of committee, as we now await his confirmation by 
the full Senate. In addition to recent visits to Syria by 
administration officials, including Undersecretary of State Burns in 
February, restoring our Ambassador to Damascus will enable the 
administration to deliver strong, unfiltered messages readily, 
consistently, and directly to the highest levels of the Syrian 
Government. The Obama administration has made clear that our diplomatic 
relations with Syria will never come at the expense of Lebanon, Israel, 
Iraq, or any of our other partners in the region, and our 
communications will continue to emphasize the need for Syria to end its 
support for Hezbollah.

                               CONCLUSION

    The United States continues to take the threats posed by Hezbollah 
to the United States, to Lebanon, to Israel, and the region at large, 
with the utmost seriousness. We are mounting considerable diplomatic, 
as well as counterterrorism, and assistance efforts aimed at minimizing 
the threat and influence of Hezbollah in the region, and promoting 
peace, stability, and prosperity across the Middle East.

    Senator Casey. Thank you very much.
    Mr. Benjamin.

      STATEMENT OF HON. DANIEL BENJAMIN, COORDINATOR FOR 
     COUNTERTERRORISM, DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Benjamin. Chairman Casey, Ranking Member Risch, 
members of the subcommittee, thank you very much for invitation 
to appear here today to discuss Hezbollah.
    We share this committee's deep concern about the threats 
posed by this very dangerous terrorist group, its activities, 
and the support and direction it receives from outside actors. 
Hezbollah remains the most technically capable terrorist group 
in the world, and it is responsible for some of the deadliest 
terrorist attacks against Americans in history.
    Hezbollah's persistence as a well-armed terrorist group 
within Lebanon, its robust relationships with Iran and Syria, 
and their transfer of increasingly sophisticated missiles and 
rockets to Hezbollah threaten the interests of the United 
States, Lebanon, and our partners in the region, especially 
Israel.
    While we recognize that Hezbollah is not directly targeting 
the United States today, we are aware that that could change, 
especially if tensions increase with Iran over that country's 
nuclear program.
    On May 25, Hassan Nasrallah, Hezbollah's leader, gave a 
speech proclaiming for the first time that Hezbollah will 
target Israeli and Israel-bound military and commercial vessels 
if Israel initiates offensive action against Lebanese ports or 
undertakes a naval blockade of Lebanon in a future conflict. 
Hezbollah has also made a number of claims recently about the 
expanding range of its arsenal, with Nasrallah stating that 
Hezbollah has the capability to hit Ben-Gurion Airport in Tel 
Aviv. Hezbollah claims to have reconstituted and improved its 
arsenal since the 2006 war.
    In early April, we reiterated our grave concerns and alarm 
to the Syrian Government over reports that they provided Scud 
missiles to Hezbollah. Transferring weapons to Hezbollah, 
especially longer range missiles, poses a serious threat to 
Lebanon's neighbors, especially Israel. Such an action would 
have a profoundly destabilizing effect on the region, and we 
have warned the Syrian Government directly about the potential 
consequences of these actions.
    We are also taking concrete steps to defend against the 
threat of Hezbollah's missiles. As President Obama and 
Secretary Clinton have said, our support of Israel's defense 
remains steadfast, particularly when it comes to protecting 
Israeli territory from rocket and ballistic missile technology 
threats.
    We will continue to cooperate closely with Israel on 
antimissile programs, such as the Arrow program and David's 
Sling. The administration has also committed to providing 
Israel funding for the Israeli Iron Dome short-range ballistic 
missile interceptor. Our efforts will help ensure that Israel 
maintains the capability to defend against and mitigate these 
threats.
    Iran continues to assist Hezbollah in rearming, in 
violation of U.N. Security Council Resolution 1701. Iran has 
provided hundreds of millions of dollars in support to 
Hezbollah and has trained thousands of Hezbollah fighters at 
camps in Iran. Iran is also in violation of UNSCR 1747, which 
prohibits it from exporting arms and related materiel.
    In 2009, U.N. Member States reported to the U.N.'s Iran 
Sanctions Committee three instances in which Iran was found to 
be transferring arms or related materiel to Syria, a regional 
hub for Iranian support to terrorist groups, including 
Hezbollah. While Hezbollah no longer maintains an overt militia 
presence in southern Lebanon, a result of Security Council 
Resolution 1701, it has strengthened its military 
infrastructure immediately north of the Litani River and in the 
Bekaa Valley since 2006.
    Taking all of this into account, I do want to underscore 
our long-term goal in Lebanon, which Secretary Feltman has 
referred to, when it comes to mitigating the threat Hezbollah 
poses--establishing competent and accountable security forces 
that are responsible for monitoring and securing all of 
Lebanon's borders and, thus, undercutting Hezbollah's flawed 
justification that it maintains its arsenal to defend Lebanon.
    Hezbollah's destabilizing actions have a global reach.
    The recent conviction of a Hezbollah cell in Egypt for 
spying, plotting attacks on resorts frequented by tourists, and 
arms smuggling illustrates the group's growing ambitions. In 
Iraq, we are aware of Hezbollah providing training and other 
support to Shia militant groups that carry out attacks against 
coalition forces.
    Hezbollah's web also extends to Europe and the Caucasus. 
For example, Hezbollah planned to attack the Israeli Embassy in 
Baku. While this attack was foiled and the perpetrators are now 
in an Azerbaijani prison, these actions illustrate the group's 
continued disregard for the rule of law, both inside and 
outside Lebanon.
    We continue to urge all of our European partners, including 
the EU, to take further action against Hezbollah, to cease 
contact with the group and enact sanctions. We reject the 
argument that there is a difference between the group's 
military and political wings.
    In the Western Hemisphere, Hezbollah has tapped into Muslim 
communities to raise funds. In June 2004, the United States 
Treasury Department designated Assad Ahmed Barakat, a 
Paraguayan, as a specially designated global terrorist under 
Executive Order 13224.
    In December 2006, Treasury designated nine individuals and 
two business establishments as working in the Barakat financial 
network. In June 2008, the USG froze the United States assets 
of two Venezuelans for providing financial and other support to 
Hezbollah. We do note, however, that we have no credible 
information to indicate that Hezbollah has an operational 
presence in Latin America.
    In addition to our efforts with Israel and the Lebanon 
security forces, we have taken numerous steps to erode 
Hezbollah's capabilities. Along with the State Department's 
designation of Hezbollah as a foreign terrorist organization, 
which dates to 1997, the Department of the Treasury's Office of 
Foreign Assets Control has used Executive Order 13224 to 
bolster the U.S. Government's capability to target terrorists' 
financial networks.
    A wide range of entities controlled by or affiliated with 
Hezbollah have been designated under the Executive order, 
including banks and financial front companies; Hezbollah-linked 
NGOs; Hezbollah's construction company, Jihad al-Bina; and 
specific individuals.
    The United States has also taken action against Iranian 
entities that are involved in funding and supporting Hezbollah. 
In 2007, the United States Government designated, under 
Executive Order 13224, Iran's Quds force, a wing of Tehran's 
Islamic Revolutionary Guard Corps, which has provided extensive 
support, equipment, and training to Hezbollah.
    In 2007, the United States designated one of the largest 
Iranian state-owned banks, Bank Saderat, for transferring funds 
to Hezbollah and Palestinian rejectionist groups. Hezbollah has 
used Bank Saderat to transfer funds, sometimes in the millions 
of dollars, to support the activities of other terrorist 
organizations such as Hamas in Gaza.
    The United States continues to take the threats posed by 
Hezbollah to it, Lebanon, and Israel, as well as the region at 
large, with the utmost seriousness. We are minimizing the 
threat and the influence of Hezbollah in the region by mounting 
considerable diplomatic as well as counterterrorism capacity-
building and assistance efforts.
    Let me just say again how pleased I am that you are holding 
this hearing, and I very much look forward to your questions.
    Senator Casey. Thank both of you.
    I will start with Ambassador Benjamin on some of the 
military aspects of this. In terms of firepower, comparing 
where they were, where Hezbollah was in the summer of 2006 in 
relationship to today, can you give us a sense of both the 
nature of the fire power, the rearming that they have done and, 
second, the reach capability?
    And I think one thing that people in this country that we 
all lose sight of is what a small area in 2006 those rockets 
hit, such a small geographic area. I want you to give us a 
sense of that geography after the firepower analysis.
    Ambassador Benjamin. Thank you for the question, Senator.
    Hezbollah itself has said that it has some 40,000 rockets 
and missiles now, which I believe is significantly more than it 
had at the time that hostilities began in 2006. It has, of 
course, made these claims that I spoke about in my statement 
regarding hitting Ben-Gurion Airport.
    Beyond that, Senator, I would have to say that we would 
need to talk about specific technical capabilities in a more 
classified setting. But I would also mention what Secretary 
Feltman referred to, which is the fact that Hezbollah is not 
right on the blue line in the way it was before, at least not 
with an overt militia presence.
    And so, in that regard, its threat has been somewhat 
diminished. But nonetheless, this enormous arsenal that it 
speaks of is quite remarkable and, as you noted in your 
statement, far exceeds the kind of arsenal that most--the vast 
majority of countries in the world possess.
    Senator Casey. And I realize that a good bit of this you 
would have to speak of, or speak about, in a classified 
setting.
    Tell us, if you can, what your sense is of the reach, as we 
know it from the public record, or have they made statements 
about the--you referred to Ben-Gurion Airport. What kind of a 
distance is that? I mean in a rough sense.
    Ambassador Benjamin. I know the geography of Israel well, 
but I am not that great at measuring miles or kilometers in my 
brain. But I would imagine that it is--Jeff, you probably know 
this better than I do--120 miles?
    Ambassador Feltman. That is about right.
    Ambassador Benjamin. Yes. From the northern border to the 
airport. So, obviously, not a tremendous distance.
    Senator Casey. You said 120?
    Ambassador Benjamin. That was my guess, yes.
    Senator Casey. And I realize these are estimates. I just 
want to give people a sense of the--a little bit of a sense of 
the geography.
    Second, and I will get to some other questions in the 
second round, but as it relates to the question of how Lebanon 
can manage this kind of internal challenge that they have, 
where are they as it relates to the question of arming or not 
really arming, it is more training of their own armed forces? 
Where are they in the progression of that, if either of you can 
speak to that?
    Ambassador Benjamin. Let me speak briefly on the issue of 
the Internal Security Forces, and then I will ask Secretary 
Feltman perhaps to speak to the LAF.
    As you know, Senator, we have been engaging with the 
Internal Security Forces through the antiterrorism assistance 
training and through other programs to improve their 
capabilities. And when we did an assessment recently on their 
capabilities, we found that they had improved significantly and 
that this is a very positive story.
    Having said that, I don't want to create any illusion that 
this is a force that is going to rid the country of Hezbollah 
any time very soon. But nonetheless, it has played a 
significant role, as you know, for example, in the case of the 
Nahr al-Bared refugee camp and continues to play an 
increasingly important role in domestic security.
    Ambassador Feltman. And Chairman, the assistance program 
with the ISF and the assistance program with the LAF, while 
administered with different pots of money and by different 
people on our side, are linked. Because the LAF has 
traditionally done a lot of police work, and so by building up 
the ISF, the capability of the ISF, it allows the LAF----
    Senator Casey. Why don't you spell out those acronyms so 
that----
    Ambassador Feltman. ISF is the Internal Security Forces. It 
is the police.
    Senator Casey. Right.
    Ambassador Feltman. National police. Gendarmerie-type 
system, police system. The LAF are the Lebanese Armed Forces, 
which are the traditional army elements. And the LAF, over the 
years, had taken on police work, given weaknesses within the 
ISF. So by building up the ISF, as Ambassador Benjamin was 
describing, the LAF is able to concentrate more on core 
missions such as counterterrorism, securing the country, things 
like that.
    We have--you referred to some of the figures yourself, that 
since 2006, we have provided to the LAF, the Lebanese Armed 
Forces, about $630 million in training, equipment, and so 
forth. This includes basic equipment, such as vehicles, 
communications gear, weapons, ammunition. It also includes some 
heavy weaponry like tanks and artillery to the LAF.
    I would note in this regard that the LAF has maintained an 
exemplary end-use record. They have 100 percent compliance with 
end-use monitoring, with the requirements on which we put the 
LAF equipment. We have a comprehensive training program to 
reshape and professionalize the LAF, also working with the LAF 
to develop a long-term strategy based on quantifiable 
milestones.
    The thing that is important to remember about the LAF is 
this is the national institution in which all Lebanese have 
sort of bestowed their national aspirations. I think we all 
know from watching Lebanon over the years that there is a weak 
state structure in general, that there have been divisions 
that, in some cases, turned violent such as during the civil 
war with loyalties for political leaders or community leaders, 
what you might even describe as feudal-type leaders.
    But the LAF is the one institution that has transcended 
those differences. It is essentially a symbol for the Lebanese 
state that the Lebanese people would all like to have. So there 
is not only the security motivation behind support to the 
Lebanese Armed Forces, there is more of a national state-
building aspect to this as well.
    In terms of measuring success, I will give you an odd 
measure right now. There has been an attack, particularly on 
the assistance to the ISF, by Hezbollah, Hezbollah's allies, 
Hezbollah-associated media, basically coming out in strong 
force saying what is this? What is the United States doing with 
the ISF? This is all something very, very nefarious. When all 
it is, is we are doing is building a credible national police 
force.
    But if Hezbollah media, Hezbollah political organs are so 
threatened by what we are doing with the ISF, I have to say 
what we are doing must be pretty good in helping contribute to 
the national police force.
    Senator Casey. Thank you.
    Senator Risch.
    Senator Risch. Thank you, Mr. Chairman.
    I would like your opinions or views on the following. We 
all know that the state of Israel has been firm in its 
determination to defend itself and, as such, will act when 
provoked to take military action. And I think alongside that 
and parallel to it, all of us and I think a number of people on 
this committee have seen the intelligence reports about the 
buildup of arms to Hezbollah, and we are not disclosing 
anything because this has all been--a lot of it has been 
reported in the media. So I think it is a fact that everyone 
can accept that there is substantial buildup of arms with 
Hezbollah since the 2006 war.
    Israel in the past has, before they have taken action, 
usually verbalized or articulated its concern regarding a given 
situation. And lately, we have been hearing Israel verbalize 
that it has growing concerns about the buildup of arms 
immediately on its northern border. What is your opinion or 
your thoughts, each of you, on the likelihood of Israel taking 
action, given the buildup and given the fact that the buildup 
continues?
    You know, the world listens and watches these things and 
then, when Israel takes action, wrings its hands about what 
they have done when there were usually pretty decent warning 
signs that there was something going to happen. And I am 
starting to get a feeling that there is growing concern 
reaching some type of critical mass regarding the buildup of 
these arms. I would like your thoughts on that.
    Ambassador Feltman. Senator Risch, let me make a couple of 
comments. And of course, the first one is the United States 
stands with Israel's right to defend itself. It is a principle 
of our foreign and security policy.
    We are, in fact, working with the Israelis to enhance their 
security capabilities against the type of threat that Hezbollah 
missiles pose, and we appreciate the support of the Senate, of 
this committee, for example, for the assistance to help Israel 
with its Iron Dome capability, where Israel is planning to 
deploy 12 new countermissile batteries under its Iron Dome. So 
the first principle is we support Israel's right to defend 
itself.
    Second thing is Israel, as you know, is going to make its 
own decisions based on its own sovereign interests, its own 
risk calculation. They don't turn to us or look to us for 
agreement, approval, or anything. They are going to make their 
decision.
    Senator Risch. So where do you think they are right now?
    Ambassador Feltman. Well, I will tell you where we are. 
Where we are I feel on more comfortable ground. We have been 
passing the message to the Syrians, to the people in Lebanon 
about the real risks that continued transfer of sophisticated 
weaponry to Hezbollah puts Lebanon and the region beyond.
    And I know that Senator Corker was just in Damascus 
himself. I suspect your message was similar to ours about these 
risks because we are using all channels that we can in order to 
get the message out about how dangerous the situation is of 
these continued transfers of weaponry to Hezbollah. So that is 
where we are.
    Senator Risch. But you know some members of this committee 
have done exactly that. We met with the Lebanese here within 
the last couple few weeks and delivered that message. I have to 
tell you, from a personal standpoint, that I was not--they get 
it. They understand it. But I was not comforted with the 
response I got as far as what they thought they could do about 
it.
    Thus, the question about what are the Israelis going to do 
about it.
    Ambassador Feltman. On the dilemma you pose is one that we 
have to think about a lot, which is that there are forces 
affecting Lebanon that are bigger than Lebanon, that are bigger 
than the Lebanese to manage by themselves. And it seems to me 
that the best thing that we can do, as the United States, is to 
try to calm the neighborhood that, frankly, the neighborhood in 
which Lebanon gets routinely mugged.
    And this is one reason why we are committed to getting to a 
comprehensive peace, a peace that includes Syria, a peace that 
will address these questions once and for all. The question we 
have before us now is how do we manage the situation in the 
meantime, between that comprehensive peace that Syria says it 
wants, that would solve the issues of these arms transfers once 
and for all, and now?
    And I don't have much insights into what the Israelis are 
thinking, but I know that they are concerned. They raise their 
concerns with us.
    Senator Risch. Dan.
    Ambassador Benjamin. Senator Risch, I don't have much to 
add to what Secretary Feltman said. We have been hearing the 
same things you have heard. I am going to be in Israel next 
week and look forward to discussing exactly these issues with 
the Israelis. It is clearly a situation of significant tension 
and of great concern to us.
    And we have, as Secretary Feltman said, been warning 
everyone in the region. I was in Damascus in March. We have 
been warning everyone about the dangers of miscalculation and 
the dangers associated with the transfer of sophisticated 
technologies and weaponry, and I would be happy to report back 
to you when I am back.
    Senator Risch. I want to thank both of you for that 
analysis.
    Mr. Chairman, thank you.
    Senator Casey. Thank you, Senator Risch.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman. And thank you for 
holding this hearing. I think it is very timely and appreciate 
both of your being here to testify.
    Ambassador Feltman, you talked about the experience over 
the last several years that the Lebanese people rejecting 
Hezbollah on a number of occasions when there were efforts to 
really grandstand by Hezbollah in Lebanon. So where do you 
think--is Hezbollah popular now among the Lebanese people, and 
are there particular sects in Lebanon that support Hezbollah 
more than others?
    And if so, where does Hezbollah get its popularity? Is it 
from intimidation, or is it from groups that truly believe in 
the message that Hezbollah seems to be delivering?
    Ambassador Feltman. Senator, thanks for the question, 
giving me the opportunity to offer my insights based on what I 
saw when I was Ambassador there for 3\1/2\ years.
    First of all, Hezbollah does have genuine grassroots 
popular support, without question. We may not like it, but we 
can't deny it that Hezbollah has been able to tap into the 
Lebanese political system, a divided Lebanese political system 
based on community loyalty and also provide some social 
services to a neglected part of the population. Iranian-funded 
social services we could say, but they have been very effective 
in doing this.
    But the point I was trying to make is there are limits. 
This is not a question where suddenly Hezbollah's ideology is 
going to be welcomed across Lebanese society, across all of 
Lebanon. So Hassan Nasrallah seems to be a true believer, a 
true believer in the Khomeini-style Iranian revolutionary 
rhetoric. That seems to be what Hassan Nasrallah--what 
motivates him.
    I think all of us know a lot of Lebanese, and you know that 
that is not a way that you would characterize all the Lebanese. 
It is an extremely sophisticated, cosmopolitan population with 
traditional ties across the region, across the world. And an 
Iranian-style, revolutionary, Shia-based ideology is not going 
to have universal appeal in Lebanon.
    So what you have is you have strong support for Hezbollah 
based in the Shia community, particularly based in the 
neglected parts of the Shia population. And then you have 
political alliances that are based on perceived mutual 
interests, and you have political accommodation that is based 
on the reality that Hezbollah is powerful, has a militia, is 
backed by Syria, is backed by Iran.
    But when you look at the election results for the municipal 
elections, for syndicate elections, for student elections, and 
even for parliamentary elections last year, you do see these 
limitations. You see erosion in the support of the allies that 
stood with Hezbollah, the allies that thought Hezbollah was 
their--the non-Shia allies that thought that Hezbollah was 
going to be their ticket to power. You see erosion in this.
    And it is what I think should inspire us that no matter how 
hard the task is in Lebanon to keep engaged, to maintain our 
support for Lebanon state institutions, to provide alternatives 
to the vision that Hezbollah has painted because it is not a 
natural vision that all Lebanese are going to subscribe to.
    Senator Shaheen. Thank you. I think that is a good 
analysis. I appreciate that.
    I was, I am sure, among many people here who were very 
pleased to see the strength of the Hariri election last year 
and the new government be formed and do recognize that the 
government faces real challenges in dealing with Hezbollah. Are 
there more or are there ways in which the government could 
better undermine Hezbollah's arguments to the public and 
encourage them to abandon violence and to really move in ways 
that are more productive to the future of Lebanon?
    Ambassador Feltman. I think that to the extent that the 
state can deliver services, if the state can create economic 
growth. And in fact, Lebanon is having something like 8 percent 
economic growth last year, and they are predicting to have 4 to 
8 percent this year. To the extent that these sorts of factors 
continue, you maintain an alternative vision to the vision that 
Hezbollah is painting.
    Now Hezbollah is in the government. They were in the 
government by invitation. The Lebanese are looking for 
consensus, a national unity government that can try to 
transcend some of the differences that have been so dangerous 
to Lebanon in the past.
    So I don't see the government itself as saying we are going 
to adopt policies that are confronting Hezbollah. That is not 
the question. The question is can the government provide the 
type of services that build a national allegiance to the state 
that transcends all of these boundaries?
    You know, Hassan Nasrallah probably would be willing to 
fight to the last Lebanese, fight Israel, fight for Iran, for 
the last Lebanese. But I am not sure that every Lebanese would 
be willing to fight for Khomeini-style revolution to the last 
Lebanese. And so, the state can embody the aspirations of the 
Lebanese for their nation with proper support, working to build 
national institutions, such as the police and such as the army.
    But again, I go back to something I said to Ranking Member 
Risch in that I think our responsibility is, first of all, to 
show support for nonsectarian national institutions like the 
army, but also to work to calm the region, the region whose 
forces have so affected Lebanon so many times in a very 
negative way.
    Senator Shaheen. Thank you. I have other questions, but I 
am about out of time.
    So thank you, Mr. Chairman.
    Senator Casey. Thank you, Senator Shaheen.
    Senator Corker.
    Senator Corker. Thank you, Mr. Chairman.
    And thank you both for your testimony and service. And 
Secretary Feltman, as you mentioned, I was in Beirut and 
Damascus this last week and certainly support the right of 
Israel to defend itself strongly, like most Americans do, and 
certainly denounce any kind of terrorist activity that any 
organization might provide.
    I will say that on the ground in Lebanon one would get a 
very different picture as it relates to how people view 
Hezbollah. Among business people in Lebanon, which basically 
generally don't pay a bit of attention to the Lebanese 
Government because of the lack of ability of the Lebanese 
Government to really do much that is very effective, they don't 
really view Hezbollah as a threat. And it is amazing to see the 
support that people have there on the ground for what they do 
in their eyes--I am just repeating them, not my own position--
but in their eyes to really defend Israeli aggression.
    And just it is a huge disconnect between what you are 
saying here and what I think one might pick up on the ground. I 
wonder if you wanted to expand on that at all?
    Ambassador Feltman. At a political level, Lebanon is deeply 
divided, and that is reflected time and time again. And so, I 
am not surprised when the business class, is a class I know 
well from the 3\1/2\ years that I spent there, makes their 
accommodations with this reality of a divided political class 
and the reality of a region that hasn't always been friendly to 
Lebanon. In fact, usually hasn't been friendly to Lebanon.
    The Lebanese are very talented in their entrepreneurial and 
business abilities. They are able to work in this. So I am not 
surprised to see accommodation by the business community to 
these divisions, and I am also not----
    Senator Corker. I think it is more than accommodation. I 
think they are glad that they are there, do not consider them 
to be a nuisance, and actually consider them to be the only 
real defense against their perceived possibility of Israeli 
aggression. So I think it is more than accommodation.
    Ambassador Feltman. And I also am not surprised if they see 
the need for Lebanon to have a deterrent. Look how many times 
Lebanon has ended up in some kind of war over the years.
    But it is not--that support that you heard, Senator, isn't 
being reflected in syndicate elections, in union elections, in 
student elections----
    Senator Corker. I am talking about strictly as a defense 
mechanism. I agree with you on the political side. But as a 
defense mechanism, I think it is viewed very differently than 
is being outlined today by many on the ground.
    Ambassador Feltman. But there is something interesting, 
which the time when I was in Lebanon I tried to point out to 
some of my friends and contacts, which is at one level 
Hezbollah is creating the conditions that then serve to create 
the threat that then give Hezbollah the justification for its 
arms.
    Let me use one example, the Israeli overflights. I know 
very well how much the Lebanese are bothered. They feel their 
national sovereignty is insulted. They are in some cases 
worried about the Israeli overflights. And these are things 
that the U.N. Security Council has heard from a number of U.N. 
representatives are a violation of various Security Council 
resolutions.
    But it would be a heck of a lot easier for us, as friends 
of Israel, as supporters of Israel's right to defend itself, to 
make the case to Israel you need to stop those overflights if 
there weren't arms smuggling. There is a direct linkage between 
the arms smuggling, the arms transfers that Hezbollah is 
engaged in and those Israeli overflights.
    So Hezbollah uses the overflights to say, look, you need 
us. You need us to defend Lebanon against these overflights. 
But they are creating the very conditions by which those 
overflights occur.
    Senator Corker. Yes. It is interesting. On the ground, 
again, I think right before the municipal elections in the 
south, there were those overflights. And some of the Lebanese 
have a totally different point of view as to why those 
overflights take place, which I won't speak about at this 
moment.
    Let me ask you the relationship between Syria and Lebanon 
obviously is very important as it relates to Hezbollah and as 
it relates to just relations overall. It looks to me like 
Hariri has made a couple of trips in recently to see Assad. And 
even though his father had been killed, I guess that is in the 
past, and there have been suspects in Syria about that, it 
looks like that is warming tremendously. And I wonder if that 
relationship warming over time might change the dynamic that 
exists with Hezbollah in southern Lebanon?
    Ambassador Feltman. I mean, our position, Senator, is that 
Lebanon and Syria should have a positive relationship, that 
there should be good relations between Syria and Lebanon. That 
when Syria and Lebanon have had bad relations that it has been 
bad for Lebanon.
    But it is a relationship that needs to be built on mutual 
respect, that needs to be based on the idea you don't interfere 
in the sovereignty of the other country. So to the extent that 
Prime Minister Hariri or President Suleiman are developing that 
type of relationship with their Syrian counterparts, we would 
welcome it.
    There is family, history, trade, all sorts of ties between 
Syria and Lebanon. It is natural they should have a good 
relationship. The trouble that has happened too many times in 
the past, though, is that that relationship has been very much 
dominated by one side interfering in the other. So, to the 
extent that they are building a new type of relationship, that 
is great.
    Senator Corker. And again, just to ask some contrarian 
types of questions, I know that Ambassador Crocker is going to 
testify afterward. I am not sure I am going to be here for 
that. I noticed one of the four things that he recommends--in 
addition to one of the things you mentioned, having an 
Ambassador to Syria. He recommended that we engage Hezbollah.
    And of course, maybe it is easy for him to say now that he 
is retired, to be able to say that kind of thing. But I 
wondered what your reaction might be to that?
    Ambassador Feltman. You know, our policy is for not 
engaging with Hezbollah for all the reasons you know. And I 
don't anticipate that policy changing. Hezbollah, to the extent 
that Hezbollah would evolve into a normal part of the political 
fabric in Lebanon, and Hezbollah would, in fact, win 
significant political support even without its arms.
    To the extent that they would play by the rules, act like a 
normal political force in Lebanon, I think that we could 
probably rethink our own policy. But for the current situation, 
as long as Hezbollah is maintaining militia, is undertaking 
activities in the region and beyond that basically are 
terrorist activities, we are not engaging with them.
    Senator Corker. Well, I thank you both for your service, 
and Mr. Benjamin, I am sorry we didn't have any questions. But 
maybe here a little bit later.
    Thank you.
    Senator Casey. Thank you, Senator Corker.
    I know we have a little more time in this panel, maybe 5 
minutes. I am trying to stick to our 1 hour, and I won't 
dominate the remaining time because I know that others may have 
questions. But I wanted to raise one question I think I would 
be delinquent if I didn't ask about this. I meant to ask 
earlier, and it could be for either, but I wanted to get your 
reaction.
    This is a Reuters story of May 18, and I will just read the 
first--I don't want to take it out of context. So I will read 
the lead of the story. It says, and I am quoting, ``The Obama 
administration is looking for ways to build up `moderate 
elements' within the Lebanese Hezbollah guerrilla movement and 
to diminish the influence of hard-liners, a top White House 
official said on Tuesday. John Brennan, Assistant to the 
President for Homeland Security and Counterterrorism, met with 
Lebanese leaders during a recent visit.''
    And it goes on from there. I think it--I haven't seen much 
analysis of that. I wanted to get your sense of what the intent 
of that statement was and what, if anything, is being done to 
effectuate that, if that is the policy of this administration?
    Ambassador Benjamin. Mr. Chairman, Mr. Brennan, who spent a 
career in the intelligence community, may have made an analytic 
statement about what is going on in Lebanese politics. But I 
think that this story itself distorts the sense of his remarks, 
and I would just say that the policy has not changed regarding 
Hezbollah or contacts with Hezbollah. We do not distinguish 
between a political wing and a military wing. We do not, to 
echo what Secretary Feltman said a moment ago, think that there 
is any room right now for engagement with Hezbollah.
    And I would just add to what he said before and to Senator 
Corker's question that I think it would be enormously damaging 
to our broader counterterrorism policy if we were to change 
course on Hezbollah in a way that we have not changed with 
Hamas or any number of other groups that do not play by the 
rules, that embrace violence against innocents as a matter of 
course, and that pose a threat to key regional allies. I just 
think that this would be very, very damaging to what it is we 
are trying to achieve in counterterrorism.
    Senator Casey. And Ambassador Feltman, do you have anything 
to add to that? I would hope that that is reiterated and 
repeated.
    Well, one final question before we wrap up and I turn to 
our colleagues for their final questions for this panel. The 
budget question, the $136 million. I guess there are a couple 
of questions there. No. 1, how do you assess that in terms of 
the impact? How will it be spent, No. 1?
    No. 2 is the question or the concern, I should say, about 
whether or not we are confident that those dollars can't find 
their way unwittingly or unintentionally, but find their way 
into somehow helping Hezbollah? What is your sense of that, or 
what can you tell us to assure us that that is not the case?
    Ambassador Feltman. Let me say a couple of things. First, 
as I mentioned earlier, the LAF has a perfect record. The 
Lebanese Armed Forces have a perfect record of accountability 
for the equipment that we have provided, which includes 
agreement on use, end-use monitoring, physical inventories. 
They have an exemplary record.
    In terms of our assistance program more broadly, when we 
are talking about ESF, NADR funds, some DRL funds, et cetera, 
we have a lot of steps in place to make sure that we are 
complying with U.S. law as well as U.S. policy in terms of 
guarding against the use of funds, materials, et cetera, 
benefiting Hezbollah or other prescribed organizations.
    You ask a broader question, which is basically are the 
levels of what we are asking for appropriate for the task? And 
I will say that one always has to balance policy priorities 
with resources, but I think that we are doing a pretty good 
job. There was a joint--United States-Lebanon joint military 
commission here back in February during the blizzard. Deputy 
Prime Minister and Defense Minister Murr was able to have 
meetings with his counterparts at DOD, and there was basically 
agreement for assuming appropriations, a $200 million 2-year 
program to build up the LAF's special forces on 
counterterrorism.
    The LAF has proven its political willingness to go after 
elements of Sunni extremism, Sunni terrorism in Lebanon, and so 
we have agreed to help build up their special operations forces 
on that counterterrorism, which I think is appropriate and will 
be welcomed across all of Lebanon. But we are not the only 
players in town. It is worth remembering that there is also 
other support coming in for Lebanon's independent 
institutions--Saudi, UAE, Jordanian, French. So we are using 
our assistance I think wisely but are mindful of the fact that 
others have resources they can bring as well.
    Senator Casey. Thank you very much.
    Unless Senator Shaheen, Senator Corker, or Senator Risch.
    Senator Shaheen. I have a question.
    Senator Casey. OK. Sure.
    Senator Shaheen. I think this may be for you, Mr. Benjamin. 
Do we--and I don't know if this is public information or not. 
But do we have estimates about the current size of Hezbollah, 
both in Lebanon and in terms of the numbers of operatives they 
are supporting around the world?
    Ambassador Benjamin. I think we have estimates for the 
number of actual men under arms in Lebanon, and it is in the 
several thousands. In terms of operatives around the world, I 
don't think we have any numbers that we could discuss in this 
setting. I think that we also would have to distinguish between 
those who are engaged in fundraising activities and those who 
are actual terrorists, those who would be prepared to carry out 
violent actions.
    And additionally, when we are talking about Lebanon, we 
would have to come up with some discussion, some assessment of 
how many people are actually involved in the organization, 
involved in their social services provision and the like. So I 
think it is a fairly complicated picture, but in terms of those 
who are under arms in Lebanon--5,000, 4,000 is the standard? Am 
I correct, Jeff?
    Ambassador Feltman. I would guess higher, but I don't know.
    Ambassador Benjamin. You would guess higher.
    Senator Shaheen. Yes, I think I am really asking about 
those who we think are involved in terrorist activities 
directly.
    Ambassador Feltman. Yes, I don't think that we could give 
you an estimate in this setting on global activities if you 
were to take into account Iraq, for example, people training in 
Iran and the like. But we would be happy to follow up with you 
on that.
    Senator Shaheen. Thank you.
    Senator Casey. Well, thanks very much to both of you. We 
appreciate your time and testimony. If we have further 
questions for the record, we will submit them to you, and we 
are grateful for your testimony. And we will move to our second 
panel.
    Just for purposes of review, for the second panel, we will 
try to keep statements to 5 to 7 minutes. Your entire 
statements, of course, will be made part of the record. And I 
think we will probably start with--we will start with 
Ambassador Crocker, if that is OK? And we will just go right to 
left.
    So we will begin the second panel. As I said before, we 
would try to keep each to an hour. We are doing pretty well so 
far.
    And Ambassador Crocker, could we start with you, if you 
don't mind? We are grateful for each of you taking the time to 
be here. I know that all of you had to travel, one way or the 
other, some from as far away as Boston and Texas, I guess.
    Thank you, Mr. Ambassador.

     STATEMENT OF HON. RYAN C. CROCKER, DEAN AND EXECUTIVE 
PROFESSOR, GEORGE BUSH SCHOOL OF GOVERNMENT AND PUBLIC SERVICE, 
           TEXAS A&M UNIVERSITY, COLLEGE STATION, TX

    Ambassador Crocker. Thank you, Mr. Chairman, members of the 
committee.
    I have had the honor many times in the past to appear 
before this committee as a member of various administrations. 
Now I am honestly able to say it is also a pleasure. 
[Laughter.]
    We are here today to discuss Hezbollah, its strength, its 
supporters, and the challenges it poses to vital U.S. interests 
in the region. While our focus today is on the Middle East, it 
is worth recalling that Hezbollah is a global network with 
capabilities in Asia, Africa, and Latin America.
    For more than a quarter of a century, Hezbollah and its 
sponsors have targeted the United States and its allies. I have 
been a witness to much of it. I was present in Lebanon when 
Hezbollah was created in the aftermath of the 1982 Israeli 
invasion. I was there during the bombings of the Embassy and 
the Marine Barracks the following year.
    I was back in Lebanon as Ambassador when Hezbollah entered 
Parliament in the 1992 elections following the assassination of 
Abbas Musawi earlier that year. I was Ambassador to Syria when 
a triumphant Hezbollah emerged ascendant in south Lebanon in 
2000, and I was present, physically present, when Hezbollah 
leader Hassan Nasrallah led a delegation to Damascus to confer 
legitimacy on Bashar al-Assad in the wake of his father's death 
that same summer. And it is worth recalling that episode when 
we look back at the recent meeting that Bashar al-Assad hosted 
in Damascus of Ahmadinejad of Iran and Hassan Nasrallah. As 
Ambassador to Iraq, I saw the evidence of Hezbollah's 
involvement in the training of Shia extremists under Iranian 
sponsorship.
    Hezbollah is both an indigenous Lebanese organization and a 
proxy for Syria and Iran. Iran has always seen itself as a 
regional power, capable of projecting force beyond its borders. 
The shah did so with conventional forces, his army in the 
Arabian Peninsula in the early 1970s at the same time his navy 
seized three islands from the United Arab Emirates.
    The creation of Hezbollah in Lebanon, just 3 years after 
the revolution in Tehran, allowed the Islamic Republic to 
continue to project power in Iranian imperial tradition, albeit 
by unconventional rather than conventional means. For Syria, 
the establishment of an ideologically motivated terrorist 
organization provided an instrument whereby Damascus could 
continue its campaign in Lebanon against Israel and the United 
States following the utter rout of its conventional forces in 
1982.
    And for both Iran and Syria, it was another important 
element in a strategic partnership forged in the wake of Saddam 
Hussein's invasion of Iran in 1980 when Syria became the only 
Arab State to side with Tehran. That strategic partnership is 
alive and well today not only in Lebanon. We saw it at work in 
Iraq during the period I was there, with Iran arming and 
training Shia militias in coordination with Hezbollah while 
Syria supported al-Qaeda and Sunni insurgents.
    In essence, they were following the Lebanon game plan of 
the 1980s. It almost succeeded, but the surge and the 
determination of the Iraqis themselves confounded the effort, 
at least for the time being.
    And the partnership in Lebanon with Hezbollah continues. 
Weapons of increasing sophistication and lethality originate 
from Iran and are delivered through Syria, as they have been 
for two and a half decades.
    But it would not be correct to see Hezbollah only as a 
puppet manipulated through Tehran and Damascus. The 
organization is strongly rooted in Lebanon's own Shia Arab 
history. Over the years, Hezbollah has expanded its 
capabilities and reach at every level, as you noted, 
politically, socially, and militarily.
    The 2006 conflict with Israel I think demonstrated that the 
threat posed by Hezbollah cannot be eliminated by military 
means alone. The recent improvement in Syrian-Saudi relations 
have strengthened the hand of Damascus in Lebanon and of 
Hezbollah as recent pressures on Prime Minister Hariri 
indicate. But neither Hezbollah nor its backers have a 
completely free hand, and there are opportunities as well as 
challenges.
    I have four suggestions. First, work to strengthen the 
Lebanese state and especially the Lebanese Armed Forces. The 
Lebanese Armed Forces emerged from the turmoil of the civil war 
as an increasingly capable and professional force.
    We need to be realistic. I do not think the Lebanese Armed 
Forces will take on Hezbollah militarily, now or in the future, 
but a strong and capable Lebanese Armed Forces could, over 
time, change the thinking of Hezbollah's core constituency. If 
the LAF is broadly seen by Lebanese Shia, including supporters 
of Hezbollah, as a competent and impartial force, the current 
strong support for an extra-legal militia may shift.
    A corollary, and this is my second point, is a concerted 
Lebanese government effort, with foreign assistance, to improve 
economic and social conditions in Shia areas. Shia mistrust of 
the state is rooted in generations of alienation fostered by a 
sense of economic marginalization and neglect. Much of 
Hezbollah's strength is the product of the state's weakness.
    Taken together, these two initiatives could bring about a 
recalculation by the Shia of the relative costs and benefits of 
an ongoing state of military confrontation with Israel. At 
present, the benefits are perceived as far outweighing the 
costs. And I certainly had the same impression, Senator Corker, 
from my contacts in Lebanon as you derived from your visit. It 
goes beyond the Shia community.
    My third point is the one you mentioned. We should talk to 
Hezbollah. One thing I learned in my time in Iraq is that 
engagement can be extremely valuable in ending an insurgency. 
Sometimes persuasion and negotiation change minds. But in any 
case, we would learn far more about the organization than we 
know now--personalities, differences, points of weakness. 
Simply put, we cannot mess with our adversary's mind if we are 
not talking to him.
    This does not need to be styled as a dramatic change in 
policy, simply a matter of fact engagement with those who hold 
official positions as Members of Parliament or the Cabinet. 
Hezbollah is a part of the Lebanese political landscape, and I 
think we should deal with it, again not with a view of finding 
the moderates or the pragmatists. I am not sure there are any. 
But as we were able to do in Iraq, we can find differences and 
divisions that can be exploited.
    For the same reasons, we should step up our engagement with 
Syria. Sending an ambassador, in my view, is not a concession. 
It improves our access, expands our understanding, allows us to 
identify potential weaknesses and differences including between 
Damascus and Tehran. In short, it would be to our advantage, 
not theirs.
    I know Robert Ford well, and he is the ideal individual for 
a job I once held. He is fluent in Arabic. And with more than 3 
years in Iraq since 2003, he is no stranger to tough 
assignments and tough people.
    Mr. Chairman, these are not magic bullets. Those don't 
exist. But over time, such efforts can make a difference. Syria 
and Iran have demonstrated a capacity for strategic patience 
and a long game in Lebanon, playing a weak hand to advantage. 
It is important that we make and sustain long-term commitments 
of our own and that we engage with adversaries as well as 
allies.
    Thank you.
    [The prepared statement of Ambassador Crocker follows:]

    Prepared Statement of Hon. Ryan C. Crocker, Dean and Executive 
 Professor, George Bush School of Government and Public Service, Texas 
                  A&M University, College Station, TX

    Mr. Chairman, members of the committee, thank you for the 
opportunity to appear before you today to discuss Hezbollah, its 
strength, its supporters, and the challenges it poses to vital U.S. 
interests in the region. These are critical issues for our country, and 
the committee is to be commended for raising them. While our focus 
today is on the Middle East, it is worth recalling that Hezbollah is a 
global network that also has capabilities in Asia, Africa, and Latin 
America.
    For more than a quarter of a century, Hezbollah and its sponsors 
have targeted the United States and its allies. I have been a witness 
to much of it. I was present in Lebanon when Hezbollah was created in 
the aftermath of the 1982 Israeli invasion. I was there during the 
bombings of the Embassy and the Marine Barracks the following year. I 
was back in Lebanon as Ambassador when Hezbollah entered Parliament in 
the 1992 elections following the assassination of Abbas Musawi earlier 
that year. I was Ambassador to Syria when a triumphant Hezbollah 
emerged ascendant in South Lebanon in 2000, and I was present when 
Hezbollah leader Hassan Nasrallah led a delegation to Damascus to 
confer legitimacy on Bashar al-Asad in the wake of his father's death 
that same summer. And as Ambassador to Iraq, I saw the evidence of 
Hezbollah's involvement in the training of Shia extremists under 
Iranian sponsorship.
    Hezbollah is both an indigenous Lebanese organization and a proxy 
for Syria and Iran. It draws heavily for its legitimacy on deeply 
rooted themes of resistance and martyrdom in Shia Islam, what scholars 
such as Dr. Rola al-Hosseini call the Karbala Paradigm. This refers to 
the death of the Imam Hossein and his followers at the hands of an 
Umayyad army near the Iraqi city of Karbala in Islam's first century. 
For the Shia, it is the defining event in their history. In Hezbollah's 
contemporary narrative, we and Israel are cast in the role of the 
Umayyads--it is a compelling image for the lower class youth who are 
the core of Hezbollah's support.
    For Iran and Syria, Hezbollah has been a valuable proxy. Iran has 
always seen itself as a regional power, capable of projecting power 
beyond its borders. The Shah did so with conventional forces. His army 
was deployed in the Arabian Peninsula in the 1970s, and his navy seized 
three islands from the United Arab Emirates at the same time. The 
creation of Hezbollah in Lebanon, just 3 years after the revolution in 
Tehran, allowed the Islamic Republic to continue to project power in 
Iranian imperial tradition albeit by unconventional rather than 
conventional means.
    For Syria, the establishment of an ideologically motivated 
terrorist organization provided an instrument whereby Damascus could 
continue its campaign in Lebanon against Israel and the United States 
following the utter rout of its conventional forces at the hands of the 
Israelis in 1982. And for both Iran and Syria, it was another important 
element in a strategic partnership forged in the wake of Saddam 
Hussein's invasion of Iran in 1980 when Syria became the only Arab 
State to side with Tehran.
    That strategic partnership is alive and well today. We saw it at 
work in Iraq during the period I was there, with Iran arming and 
training Shia militias in coordination with Hezbollah while Syria 
supported al-Qaeda and Sunni insurgents. In essence, they were 
following the Lebanon game plan of the 1980s. It almost succeeded, but 
the surge and the determination of the Iraqis themselves confounded the 
effort, at least for the time being. And the partnership in Lebanon 
with Hezbollah continues. Weapons of increasing sophistication and 
lethality originate from Iran, and are delivered through Syria as they 
have been for two and a half decades.
    But it would not be correct to see Hezbollah as a puppet 
manipulated through Tehran and Damascus. The organization is strongly 
rooted in Lebanon's own Shia Arab history. It is worth recalling that 
South Lebanon (known as Jabal Amel) flourished as a center of 
scholarship and culture in the Middle Ages. After the establishment of 
the Safavid Empire at the beginning of the 16th century, Iran's first 
Shia dynasty, the ulama of Jabal Amel advised the new rulers on the 
structure and principles of a Shia state. Hezbollah styles itself as 
the heir to that tradition.
    Over the years, Hezbollah has expanded its capabilities and reach 
at every level--politically, socially, and militarily. The 2006 
conflict with Israel demonstrated that the threat posed by Hezbollah 
cannot be eliminated by military means. The recent improvement in 
Syrian-Saudi relations have strengthened the hand of Damascus in 
Lebanon, and strengthened Hezbollah as recent pressures on Prime 
Minister Hariri indicate. But neither Hezbollah nor its backers have a 
free hand, and there are opportunities as well as challenges. As we 
consider our options, I suggest we move in the following directions.

  <bullet> Work to strengthen the Lebanese state, and especially the 
        Lebanese Armed Forces (LAF). The LAF has emerged from the 
        turmoil of the civil war as an increasingly capable and 
        professional force. I do not think it is realistic to expect 
        the LAF to take on Hezbollah militarily, now or in the future. 
        But a strong and engaged Lebanese army could over time change 
        the thinking of Hezbollah's constituency. If the LAF is broadly 
        seen by Lebanese Shia, including supporters of Hezbollah, as a 
        competent and impartial force, the current strong support for 
        an extra-legal militia may shift.
  <bullet> A corollary is a concerted Lebanese Government effort, with 
        foreign assistance, to improve economic and social conditions 
        in Shia areas. Shia mistrust of the state is rooted in 
        generations of alienation fostered by a sense of economic 
        marginalization and neglect. Much of Hezbollah's strength is 
        the product of the state's weakness. Taken together, these two 
        initiatives could bring about a recalculation by the Shia of 
        the relative costs and benefits of an ongoing state of military 
        confrontation with Israel. At present, the benefits are 
        perceived as far outweighing the costs.
  <bullet> We should talk to Hezbollah. One thing I learned in Iraq is 
        that engagement can be extremely valuable in ending an 
        insurgency. Sometimes persuasion and negotiation change minds. 
        But in any case we would learn far more about the organization 
        than we know now--personalities, differences, points of 
        weakness. We cannot mess with our adversary's mind if we are 
        not talking to him. This does not need to be styled as a 
        dramatic change in policy; simply a matter of fact engagement 
        with those who hold official positions as Members of Parliament 
        or the Cabinet. Hezbollah is a part of the Lebanese political 
        landscape, and we should deal with it directly.
  <bullet> For the same reasons, we should step up our engagement with 
        Syria. Sending an ambassador is not a concession. It improves 
        our access, expands our understanding, allows us to identify 
        potential weaknesses and differences including between Damascus 
        and Tehran--in short it would be to our advantage, not theirs. 
        I know Robert Ford well, and he is the ideal individual for a 
        job I once held. He is fluent in Arabic, and with more than 3 
        years in Iraq since 2003, no stranger to tough assignments and 
        tough people.

    Mr. Chairman, these are not magic bullets. There are none in this 
campaign. But over time, such efforts can make a difference. Syria and 
Iran have demonstrated a capacity for strategic patience and a long 
game in Lebanon, transforming a weak hand to a strong one. It is 
important that we sustain long term commitments of our own.

    Senator Casey. Thank you, Ambassador Crocker.
    Ms. Pletka.

   STATEMENT OF DANIELLE PLETKA, VICE PRESIDENT, FOREIGN AND 
    DEFENSE POLICY STUDIES, AMERICAN ENTERPRISE INSTITUTE, 
                         WASHINGTON, DC

    Ms. Pletka. Thank you, Mr. Chairman, members of the 
committee.
    At the outset, as you mentioned, Mr. Chairman, let me say 
that I spent more than a decade--I am loath to admit that--
working on the subject of today's hearing as a staff member for 
this committee, and I am a little bit more accustomed to 
sitting behind you than I am sitting in front of you.
    But I am very grateful for this invitation to testify today 
not just because it feels like a homecoming for me, but more 
importantly, because I know from personal experience the 
important role that this committee can play in addressing this 
and so many other vital issues.
    Despite a heightened awareness of terrorism and terrorist 
groups since 9/11, American policy toward Lebanon, Syria, and 
Hezbollah remains, I believe, confused--a mass of mixed signals 
and inconsistent approaches.
    Despite more than $1.6 billion--and we have mentioned some 
of the component parts of that aid, but we haven't added it all 
up--more than $1.6 billion in economic and military assistance 
to Lebanon since FY06, that includes next year's request--both 
the Obama administration and the previous administration have 
very little to show for their efforts in the Levant.
    In the wake of the assassination of former Lebanese Prime 
Minister Hariri in 2005--a murder, by the way, we haven't 
stated this explicitly, but certainly Hezbollah is suspected to 
have been involved in that by the United Nations tribunal 
investigating that murder--the international community took a 
relatively hard line against Syria and its proxies. And the 
resulting end to the Syrian military domination of Lebanon gave 
many of us hope that Lebanon was at last on track to regain the 
independence it lost in 1976.
    In the years that followed, there were a lot of troublesome 
developments that should only have fueled our commitment to 
helping Lebanon protect itself from Syrian and Iranian 
predations. The 2006 war that we have talked about and, worst 
still, Hezbollah's performance in that conflict revealed what 
some in Israel and the United States had dismissed as a ragtag 
group of terrorists was, in fact, a sophisticated, well-
trained, and as we have mentioned, very well-armed fighting 
machine.
    The subsequent passage of U.N. Security Council Resolution 
1701 and its call for, and I quote, ``no weapons without the 
consent of the Government of Lebanon and no authority other 
than that of the Government of Lebanon'' appeared to be a 
silver lining to the summer war, much as the aftermath of the 
Hariri murder led to the withdrawal of Syrian troops. But the 
resolution has been all but ignored.
    Iran and Syria continued to rearm Hezbollah, and Hezbollah 
is now significantly better armed than it was in 2006. As you 
mentioned, as Secretary Gates has said, Hezbollah has far more 
rockets--and I am quoting here--``more rockets and missiles 
than most governments in the world.'' I provided you with an 
estimated list of some of their weaponry based on open sources, 
and it is impressive, indeed.
    Let me just list a couple of things for you that are 
developments that we have reported on our Iran Tracker Web site 
at AEI in the last 6 months alone. The Times of London reported 
that Israeli and American officials believe Syria transferred 
two Scud missiles to Lebanon, where they are suspected to be in 
an underground storage facility in the Bekaa Valley. Hezbollah 
sources told a Kuwaiti paper that the group now has the 
capability to launch 15 tons of explosives at Israel every day 
in the case of another war.
    Arms seized from a cargo plane in Bangkok late last year 
were destined for Hezbollah and Hamas. And Thai authorities 
said that the plane, with weapons that were sourced in North 
Korea, was carrying 35 tons of weaponry, including rockets and 
RPGs.
    Reports in May suggested that Syria supplied Hezbollah with 
M600 missiles. That would allow Hezbollah to hit Tel Aviv from 
southern Lebanon. That is, by the way, about 60 miles, not even 
120.
    In January, which was an extraordinarily busy month for 
that relationship, Hezbollah placed long-range rockets deep 
into Lebanon and the Bekaa Valley. The Israeli Navy seized an 
Iranian ship en route to Syria, carrying weapons destined for 
Hezbollah from Venezuelan President Hugo Chavez. Kuwaiti papers 
reported a United States official saying Hezbollah operatives 
were training on SA2 antiaircraft missile batteries in Syria, 
and U.N. peacekeepers uncovered 660 pounds of explosive devices 
near the border with Israel.
    It is a pretty amazing list just from the last few months 
alone. In short, Hezbollah is effectively a state within a 
state in Lebanon, with an ever growing and ever more 
sophisticated long-range arsenal. It is untrammeled by the 
Lebanese Government to which it belongs and answerable to no 
one in that nation, but rather to the dictatorships in Damascus 
and in Tehran.
    Sadly, hopes that Lebanese leaders answerable to the 
Lebanese people--and not to foreign powers--would regain 
control have not been realized. And there was no more poignant 
symbol of that failure than the fact that as Lebanese Prime 
Minister Saad Hariri was meeting with our own President Obama 
and his team, Lebanese President Michel Suleiman appeared on 
Hezbollah's Al Manar television station, praising Hezbollah and 
reportedly, and I quote, ``calling on all Lebanese to embrace 
and protect Hezbollah's arms.''
    According to the Pentagon, Hezbollah receives up to $200 
million in subsidies from Iran each year, in addition to its 
weaponry. They also raise money here in the United States, and 
there have been several arrests of Hezbollah fundraisers and 
supporters here, including an arrest in Ohio last week.
    Hezbollah also receives training from the elite Quds Force 
of the Iranian Revolutionary Guard Corps and, in turn, provides 
training to a variety of groups at its bases in Lebanon. The 
Pentagon reported in April that ``Lebanese Hezbollah has 
trained Iraqi insurgents in Iraq, Iran, and Lebanon, providing 
them with the training, tactics, technology to conduct 
kidnappings, small unit tactical operations, and employ 
sophisticated improvised explosive devices--IEDs--incorporating 
lessons learned from operations in southern Lebanon.''
    That was all a quotation from the Pentagon report. In 
short, Hezbollah is capable of waging war on its own behalf, 
has a wide network around the world, has operational alliances 
with other terrorist groups, and affords Iran the opportunity 
to open a second front in any conflict. And it is able to do 
all of that behind the facade of ``national resistance'' in 
Lebanon.
    What that means for Lebanon is continued erosion of the 
state, subjugation to foreign interests, a loss of independent 
will and democracy, and most importantly from my rather 
parochial American perspective, a huge threat to ourselves and 
to our allies.
    We have pursued a policy over the last few years of 
engagement and of bolstering the Lebanese state we had hoped at 
the expense of Hezbollah, including arms sales topping half a 
billion dollars. But it is not entirely clear what those arms 
or that aid have bought. If we had hoped it would buy the 
disarmament of Hezbollah, we were wrong. If we hoped it would 
buy independence from Syria or Iran or an end to terrorist 
training camps--camps whose teachings, by the way, have 
resulted in the death of American soldiers--we were wrong.
    The Obama administration has pursued a determined policy of 
engagement with Lebanon's overlords in Damascus. Others have 
said that this is the right policy--thank you, Ryan--affording 
the United States an opportunity to talk directly to the 
Syrians about our concerns. I would counter that we have talked 
to the Syrians repeatedly, through both our Embassy in Damascus 
and via regular visits from high-level administration 
officials, and it has not yet paid off. Indeed, Damascus 
continues to pursue policies that are anathema to our 
interests, and some suspect that the Assad regime is even 
continuing to develop its own nuclear weapons program.
    Rumors abound lately that the Obama administration is 
considering the wisdom of reaching out directly to Hezbollah. I 
am glad to have heard the administration officials directly 
contradicting that and contradicting what John Brennan, the 
White House's top counterterrorism official, suggested was an 
important way to ``build up the more moderate elements'' within 
Hezbollah, after he termed Hezbollah ``a very interesting 
organization.'' I think those were regrettable statements.
    But the fact is that these mixed signals from Washington 
are dangerous, and we should have little doubt that we are 
perceived in the region as weak and as confused and as 
vacillating not just by our friends, but also by our enemies.
    The time has come, unfortunately--because I have enormous 
respect and affection for the people of Lebanon--has come to 
reassess our relationship with Lebanon and the challenges posed 
by Hezbollah. I don't believe we will be served by greater 
rapprochement with Damascus or with their terrorist proxies.
    Finally, at a certain moment it is going to be necessary 
for us to ask whether United States taxpayer dollars going to 
Lebanon are helping our friends or subsidizing our enemies. If 
the support to Lebanon's Army is not going to secure Lebanon's 
borders, and it's not going to rid Lebanon of terrorist groups, 
one might reasonably ask what it is going for.
    That's a question Congress has asked in years past, when 
Lebanon was a center of kidnapping, hijacking, and murder. And 
thanks to Hezbollah, it is time for us to ask that again.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Ms. Pletka follows:]

  Prepared Statement of Danielle Pletka, Vice President, Foreign and 
Defense Policy Studies, The American Enterprise Institute, Washington, 
                                   DC

    Mr. Chairman, members of the committee, at the outset, let me say 
that I spent more than a decade working on the subject of today's 
hearing as a staff member of this committee; I'm a bit more accustomed 
to sitting in the chair behind you than the one in front of you. I am 
grateful for your invitation to testify today--because this feels like 
a homecoming, and more importantly, because I know from personal 
experience the important role this committee can play in addressing 
this vital issue.
    Despite a heightened awareness of terrorism and terrorist groups 
since 9/11, American policy toward Lebanon, Syria, and Hezbollah 
remains confused--a mass of mixed signals and inconsistent approaches. 
Despite more than $1.6 billion in economic and military assistance to 
Lebanon since FY06 (including requests for FY 2011), despite a 
concerted effort to reach out to the Assad regime in Damascus, and 
despite a willingness to overlook the increasingly dominant military 
and political role played by Hezbollah in Lebanon, the Obama 
administration has little to show for its efforts in the Levant.
    In the wake of the assassination of former Lebanese Prime Minister 
Rafiq Hariri in 2005--a murder in which Hezbollah was reportedly 
involved--the international community took a relatively hard-line 
against Syria and its proxies. The resulting end to the Syrian military 
domination of Lebanon gave many of us hope that Lebanon was at last on 
track to regain the independence lost in 1976. Certainly, it seemed 
that Washington, at least, would no longer tolerate the exploitation of 
the Lebanese people by both Tehran and Damascus.
    In the years that followed, there were troublesome developments 
that should only have fueled our commitment to helping Lebanon protect 
itself from Syrian and Iranian predations. In 2006, Hezbollah crossed 
Lebanon's southern border with Israel and kidnapped two Israeli 
soldiers, sparking a war between Israel and Hezbollah that resulted in 
substantial loss of life, including among Lebanese civilians. How was 
it possible that one armed group could, without consultation or 
compunction, drag a nominally democratic nation into war?
    Worse still, Hezbollah's performance in that conflict revealed that 
what some in Israel and the United States had dismissed as a ragtag 
group of terrorists was a sophisticated, well-trained, and very well-
armed fighting machine.
    The subsequent passage of U.N. Security Council resolution 1701 and 
its call for ``no weapons without the consent of the Government of 
Lebanon and no authority other than that of the Government of Lebanon'' 
appeared to be another silver lining to the summer war--much as the 
aftermath of the Hariri murder led to the withdrawal of Syrian troops. 
But the resolution has been all but ignored in the face of repeated and 
flagrant violations.
    And there were more frightening signs: revelations that Syria was 
pursuing a nuclear weapons capability; a series of assassinations of 
anti-Syrian politicians in Lebanon; the collapse of the March 14 
movement; Hezbollah's 2008 armed takeover of Beirut, and the subsequent 
capitulation of March 14 to Hezbollah's demands for a veto over 
government decisions.
    During this political turmoil, Iran and Syria continued to rearm 
Hezbollah. Transfers, which were slow in the immediate aftermath of the 
2006 war, ramped up quickly, and Hezbollah is now significantly better 
armed than it was in 2006, according to Defense Secretary Robert Gates 
``Syrian and Iran are providing Hezbollah with rockets and missiles of 
ever-increasing capability [and] we're at appoint now, where Hezbollah 
has far more rockets and missiles than most government in the world.'' 
Consider the developments reported on AEI's Iran Tracker site from this 
year alone (citations and sources can be found on the site):

  <bullet> The Times of London reports that Israeli and American 
        officials believe Syria transferred two Scud missiles into 
        Lebanon, where they are suspected to be in an underground 
        storage facility in the Beqa'a Valley. (Israel reportedly 
        planned to attack one of the Syrian trucks transferring weapons 
        to Hezbollah as it crossed the Lebanese border, but held back 
        on American request. American officials are still hoping that 
        Syria can be convinced to stop supplying Hezbollah with weapons 
        without military intervention. According to the report, 
        satellite imagery shows one of the secret arms facilities in 
        Adra, Syria, where Hezbollah militants have living facilities 
        and trucks to transport the missiles to Lebanon.)
  <bullet> Hezbollah sources told the Kuwaiti paper Al Rai that the 
        group had the capability to launch 15 tons of explosives at 
        Israel every day in the case of another war between the two 
        sides, going on to claim that Hezbollah possesses a wide range 
        of missiles with a heavy payload, including the 1-ton Zilzal 
        missile and half-ton Fateh 110 and M600 missiles.
  <bullet> The Israeli Foreign Minister said that the arms seized from 
        a cargo plane in Bangkok in December 2009 were destined for 
        Hezbollah and Hamas. Thai authorities said that the plane, with 
        weapons believed to have originated in North Korea, was 
        carrying 35 tons of weaponry including rockets and RPGs.
  <bullet> Reports in early May suggest that sometime in the last year, 
        Syria supplied Hezbollah with M600 missile. (The M600 is the 
        Syrian version of the advanced Iranian Fateh-110 missile. The 
        missile's range would allow Hezbollah to hit Tel Aviv from 
        southern Lebanon.)
  <bullet> In January, a busy month, the Washington Post reported that 
        Hezbollah placed long-range rockets deep into Lebanon and the 
        Beqa'a Valley; Hezbollah terrorists fired an antitank rocket at 
        an IDF bulldozer that was clearing a minefield along the 
        Israeli-Lebanese border, killing a soldier; and the Israeli 
        navy seized an Iranian ship en route to Syria carrying weapons 
        destined for Hezbollah from Venezuelan President Hugo Chavez; 
        the Kuwaiti papers reported a U.S. official saying that 
        Hezbollah operatives trained in Syria on SA2 antiaircraft 
        missile batteries; and finally U.N. peacekeepers uncovered 660 
        pounds of explosive devices near the border with Israel (this 
        happened in December, but was reported in January).

    All these details and more can be found on the Iran Tracker site--
www.irantracker.org. But stop for a moment and ponder that fact that 
this is only news from 2010.
    In short, Hezbollah is effectively a state within a state in 
Lebanon, with an ever growing and ever more sophisticated long range 
arsenal. It is untrammeled by the Lebanese Government to which it 
belongs and answerable to no one in that nation, but rather to the 
dictatorships in Damascus and Tehran. Sadly, hopes that Lebanese 
leaders answerable to the Lebanese people--and not to foreign powers--
would regain control have not been realized. There is no more poignant 
symbol of that failure than the fact that as Lebanese Prime Minister 
Saad Hariri was meeting with our own President Obama and his team, 
Lebanese President Michel Suleiman appeared on Hezbollah's television 
station, al-Manar, praising Hezbollah and ``calling on all Lebanese to 
embrace and protect [Hezbollah's] arms.''
    According to the Pentagon, Hezbollah receives up to $200 million in 
subsidies from Iran each year, in addition to weaponry. Other reports 
suggest they may receive even more. The group also raises money in the 
United States, including through criminal activities, and there have 
been several arrests of Hezbollah fundraisers and supporters in the 
United States, including one in Ohio last week.
    Hezbollah receives training from the elite Quds Force of the 
Iranian Revolutionary Guard Corps, and in turn provides training to a 
variety of terrorist groups at its bases in Lebanon. The Pentagon 
reported in April that ``Lebanese Hezbollah has trained Iraqi 
insurgents in Iraq, Iran, and Lebanon, providing them with the 
training, tactics, and technology to conduct kidnappings, small unit 
tactical operations and employ sophisticated improvised explosive 
devices (IEDs), incorporating lessons learned from operations in 
southern Lebanon.''
    In short, Hezbollah is capable of waging war on its own behalf, has 
a wide network around the world, growing particularly in Latin America, 
has forged operational alliances with a variety of other terrorist 
groups, including Sunni groups and affords Iran the opportunity to open 
a second front in any conflict. And it is able to do all of this behind 
the facade of ``national resistance'' in Lebanon, playing the role at 
once of defender of Lebanese sovereignty, of terrorist training group 
and of political powerhouse with two seats in the Hariri Cabinet and a 
veto over national decisionmaking.
    What this means for Lebanon is the continued erosion of the state, 
its subjugation to foreign interests, a loss of independent will and 
democracy and a potent threat to American allies and American 
interests. In the years since the Hezbollah-Israel war, the United 
States has pursued a policy aimed at bolstering the Lebanese state at 
the expense of Hezbollah. That includes arms sales that top half a 
billion dollars and substantial aid. It is not entirely clear what 
either those arms or that aid have bought. If we had hoped it would buy 
the disarmament of Hezbollah, we were wrong. If we hoped it would buy 
independence from Syria or Iran or an end to terrorist training camps--
camps whose teachings have resulted in the death of American soldiers--
we were wrong.
    The Obama administration has pursued a determined policy of 
engagement with Lebanon's overlords in Damascus. Others have said that 
this is the right policy, affording the United States an opportunity to 
talk directly to the Syrians about our concerns. I would counter that 
we have talked to the Syrians repeatedly, through both our Embassy in 
Damascus and via regular visits from high level administration 
officials. And that hasn't paid off. Indeed, Damascus continues to 
pursue policies anathema to our interests, and some suspect the Assad 
regime is continuing to develop nuclear weapons.
    Rumors abound lately that the Obama administration is considering 
the wisdom of reaching out directly to Hezbollah to establish a 
dialogue. Recently, John Brennan, the White House's top 
counterterrorism official, suggested the United States needed to find a 
way to ``build up the more moderate elements'' within Hezbollah, which 
he termed ``a very interesting organization.''
    His statements stand in stark contrast to those of other 
administration officials, including former DNI Denny Blair, who earlier 
this year refused to rule out a possible Hezbollah attack on the United 
States.
    These mixed signals from Washington are dangerous, and we should 
have little doubt that we are perceived in the region as weak--by our 
friends as well as our enemies.
    The time has come to reassess our relationship with Lebanon and the 
challenge posed by Hezbollah. I do not believe we will be served by 
greater rapprochement with Damascus or with their terrorist proxies.
    Finally, at a certain moment it will be necessary for us to ask 
whether U.S. taxpayer dollars going to Lebanon are helping our friends, 
or subsidizing our enemies. If the support to Lebanon's army is not 
going to secure Lebanon's borders, and it's not going to rid Lebanon of 
terrorist groups, one might reasonably ask what it is going for. That's 
a question Congress has asked in years past, when Lebanon was a center 
of kidnapping, hijacking and murder. Thanks to Hezbollah, it is time to 
ask again.

    Senator Casey. Thank you very much for your testimony.
    Dr. Norton.

STATEMENT OF AUGUSTUS RICHARD NORTON, PROFESSOR OF ANTHROPOLOGY 
   AND INTERNATIONAL RELATIONS, DEPARTMENT OF INTERNATIONAL 
            RELATIONS, BOSTON UNIVERSITY, BOSTON, MA

    Dr. Norton. Thank you very much, Senator Casey, and 
distinguished members of the committee.
    I am going to take your advice to heart to deliver an 
abbreviated statement, particularly pruning comments that would 
be redundant of some of the other speakers.
    I would like to begin by noting that my first on-the-ground 
exposure to Lebanon was 30 years ago, when I served for 14 
months in southern Lebanon as an unarmed United Nations 
military observer on secondment from the U.S. Army. Only a bit 
more than a year before, the shah of Iran had been toppled from 
power. Hezbollah, the subject of today's hearing, did not 
exist.
    Indeed, the PLO was then the dominant military power from 
Beirut to the Israeli border, and Israeli-PLO clashes were 
routine occurrences. This was 1980. Within Lebanon, a civil war 
had been underway for 5 years, and it would be another decade 
before the internal conflict came to an end.
    As the leader of a small team of well-qualified observers, 
I enjoyed regular contacts with members of the Lebanese Shia 
community, including the leaders of a political movement known 
as Amal that I wrote about in a book in the 1980s. Many of the 
Lebanese Shia leaders in those early days, while inspired by 
the recent revolution in Iran, were little interested in 
importing Iranian models into Lebanon. They yearned for an end 
to the violence that often took a heavy toll in Shia property 
and lives.
    In 1982, Israel invaded Lebanon with grand plans to destroy 
the PLO and install a friendly Lebanese Government that would 
become the second Arab State after Egypt to sign a peace treaty 
with Israel. The Israeli invasion did, in fact, occasion great 
hope in the country that the civil war would finally be ended, 
especially since the PLO military apparatus was decimated. The 
dominant Shia group at the time, Amal, certainly shared the 
hope that a violent chapter in Lebanon's history was finished.
    In Washington, you will recall the Reagan administration 
seized upon the Israeli invasion as a strategic opportunity 
and, along with European allies, launched the multinational 
force to help stabilize security in and around Beirut. 
Meantime, while Israel incrementally retrenched its forces, it 
established an occupation zone in southern Lebanon, the Shia 
heartland. That zone was not surrendered until the year 2000.
    Israel's occupation of southern Lebanon for roughly two 
decades would contribute to the radicalization of the Shia and 
undermine more moderate voices and, therefore, was 
counterproductive.
    With Iranian tutelage, a cadre of Lebanese Shias rejected 
Amal's relatively conciliatory stance vis-a-vis Israel and 
sought to reproduce Iran's revolutionary model in Lebanon. By 
the mid-1980s, they would coalesce into Hezbollah. A number of 
them participated in the hallmark acts of violence and 
terrorism that we are all familiar with from the horrendous 
1980s.
    Mr. Chairman, I begin with these recollections because I 
believe they are relevant to understanding the topic at hand, 
namely, the strength of Hezbollah in 2010 and its ability to 
sustain impressive popular support in Lebanon.
    How did a relatively small group of revolution-oriented 
conspirators become arguably the most powerful and popular 
organization in Lebanon? I offer five key explanations, in 
addition, obviously, to significant Iranian subsidy and 
support.
    No. 1, the resistance to Israeli occupation. While 
Hezbollah was not the only group challenging Israel's presence, 
it was by far the most successful and earned great credit for 
that.
    Two, institution-building. Recent decades have witnessed a 
proliferation of social, cultural, and economic organizations 
serving the Shia community. Hezbollah's are among the most 
efficiently run and most admired. Lebanese opponents to 
Hezbollah have acknowledged that it is really the only fully 
institutionalized political party in Lebanon.
    Third, the worldview that it offers. Hezbollah promotes an 
ideology that stresses the importance of resistance, not just 
to foreign occupiers--and of course, it emphasizes Israel and 
the United States in particular in that context--but resistance 
to injustice, corruption, and poverty. And that worldview has 
gained a significant footing in the Lebanese Shia community, 
which comprises roughly one-third of the total population of 
Lebanon.
    Fourth, piety. Hezbollah advocates an expansive view of 
piety that stresses commitment, engagement, community 
participation, and individual responsibility. While this 
conception of piety is hardly unique to Hezbollah, or to Shia 
Islam for that matter, it is an important element in the 
organization's message to its followers.
    Fifth, pragmatism. At key junctures in its history, 
Hezbollah has changed course, notably in 1992 when it put aside 
its condemnation of Lebanese politics as ``corrupt to the 
core'' in order to participate in elections and in the 
political process.
    As you know, Mr. Chairman, when Israel unilaterally 
withdrew from its self-declared ``security zone'' in May 2000, 
it did so noting that this was a unilateral decision on the 
part of Israel. It was not being done under pressure. 
Nonetheless, Hezbollah was widely credited and celebrated in 
Lebanon for playing the leading role in forcing Israel to exit.
    The fact is that Hezbollah did prove a very potent foe to 
the Israeli Army in Lebanon and to its allies. It is widely 
believed in Lebanon that Israel would still be occupying a 
large chunk of the country were it not for the antioccupation 
resistance.
    Hezbollah's main rival, Amal--which it has fought at 
various times over the course of the last decades--continues to 
enjoy support in segments of the Shia community, Amal has lost 
many of its supporters to Hezbollah. Much of the growing Shia 
middle class--and there is a significant middle class that has 
emerged over the last three or four decades--most of the 
growing middle class in particular grew disappointed with 
Amal's inefficiency, its corruption, and its inability to be 
other than a large patronage network, which is not to say that 
they have necessarily joined Hezbollah, but they tend to 
support it.
    When I revisit many of villages and towns in the Bekaa 
Valley in south Lebanon that I first encountered decades ago, 
today I see impressive evidence of flourishing economies--new 
homes, good cars, competent public services, and a variety of 
institutions that did not exist before, such as modern clinics 
and decent schools. Many of these communities benefit from 
wealth earned in Africa, where Lebanese Shias play active roles 
as traders and entrepreneurs.
    In addition, a variety of religious foundations linked to 
revered Shia clerics--Ayatollah Ali Sistani in Najaf, Iraq, for 
example; Lebanon's own Ayatollah Muhammad Hussein Fadlallah--
offer a range of services as well. In other words, Hezbollah is 
not the only player in the provision of services. There are 
many others that provide services. But Hezbollah services are 
important and are a partial explanation for the level of 
support it enjoys. But the fact is that there are other threads 
of support.
    As you know, Mr. Chairman, when Israel did withdraw in 
2000, with Syrian support and encouragement, Hezbollah insisted 
on keeping its arms. So long as Israel remained in Lebanon, 
Damascus could claim that the key to a secure northern border 
for Israel was in a peace agreement with Syria. The Israeli 
exit undermined Syria's leverage.
    Hezbollah argued that the Israeli withdrawal was incomplete 
since Israel continued to occupy a segment of Lebanese 
territory in the Golan Heights. More important, the group 
argued that unless Israel was deterred from returning to 
Lebanon, it would exploit Lebanon's weakness. This is not an 
argument that persuaded all Lebanese or all Shias, for that 
matter. But it did persuade many.
    As the afterglow of the celebrations ebbed, Hezbollah's 
rationale for keeping its weapons was increasingly challenged 
in Lebanon, particularly after the assassination of former 
Prime Minister Hariri in February 2005 and the exit of Syrian 
forces a few months hence.
    So prior to the 2006 war, there were many, many voices 
being raised: ``Why do they still have these weapons''? And in 
fact those voices are still being raised today. However, and I 
will close on this point, the effect of the 2006 war was to, in 
effect, validate the narrative of Hezbollah for the Shia 
community. In other words, the need for a deterrent vis-a-vis 
Israel.
    I have sat in Lebanese villages in south Lebanon and 
listened to informal debates, and these are places I have been 
going for many years. People are very comfortable with me 
listening to what they are saying and so on. And I have heard 
people debate precisely this question about defense and 
deterrence.
    And what they frequently say, apropos of Ambassador 
Crocker's comment, is that they love the Lebanese Army. It is a 
national institution. They revere it, but it is too weak. And 
given their history of conflict, given the invasions and the 
incursions and the punitive raids that they have experienced, 
particularly in southern Lebanon, there is a very strong 
argument in their minds for Hezbollah's role as a deterrent 
force.
    Unless Hezbollah can be defeated completely, which is to 
say in military parlance defeated in detail, it is very likely 
that a new war, which many Lebanese expect to happen, that a 
new war will further validate Hezbollah's model of deterrence. 
Which is to say that, in my view, it is not likely that another 
war, if it comes, is going to result in the elimination of 
Hezbollah.
    To the contrary, in many ways, it will strengthen its 
argument and its base of support precisely because defeating an 
enemy like Hezbollah cannot be done by dropping bombs. It 
cannot be done by indirect fire, but it requires face-to-face, 
eyeball-to-eyeball combat. And in that context, the Israeli 
army gives up many, many of its advantages.
    So I think we are really in a kind of conundrum. This is an 
organization that raises significant challenges for the United 
States, for the security of Israel. Yet it is very firmly 
entrenched in a segment of Lebanese society which is not 
insignificant, and given its role in providing what it deems a 
deterrent force for Lebanon, its role is likely to continue to 
be validated over the course of time, particularly if there is 
more conflict.
    Thank you very much.
    [The prepared statement of Dr. Norton follows:]

      Prepared Statement of Augustus Richard Norton, Professor of 
   International Relations and Anthropology, Boston University, and 
     Visiting Professor in the Politics of the Middle East, Oxford 
                               University

    Mr. Chairman, distinguished members of the committee, thank you for 
the opportunity to testify today about Hezbollah, a group that has 
become a powerful player in Lebanese politics, a formidable militia 
force capable of posing a serious challenge to Israel's vaunted 
military, and a group that is both a beneficiary of Iranian largesse 
and an accomplice to Iran's ambition for regional hegemony in the 
Middle East.
    My first on-the-ground exposure to Lebanon was 30 years ago when I 
served for 14 months in southern Lebanon as an unarmed United Nations 
military observer (on secondment from the U.S. Army). Only a bit more 
than year before, the Shah of Iran had been toppled from power. 
Hezbollah, the subject of today's hearing, did not exist. Indeed, the 
PLO was then the dominant military power from Beirut to the Israeli 
border, and Israeli-PLO clashes were routine occurrences. This was 
1980. Within Lebanon a civil war had been underway for 5 years, and it 
would be another decade before the internal conflict came to an end. As 
the leader of a small team of well-qualified observers, I enjoyed 
regular contacts with members of the Lebanese Shi'i Muslim community, 
including the leaders of a political movement known as Amal.
    The Shi'i Muslims are the largest single community in Lebanon, 
probably accounting for a third or more of the total population, and 
they primarily live in and around Beirut, in the Bekaa Valley and in 
South Lebanon. Historically, this is an underprivileged community. I 
recall vividly the dreadful conditions that defined many Shi'i 
villages, legacies of decades of neglect by the central government 
exacerbated by the ravages of recent fighting.
    Many of the Lebanese Shi'i leaders in those early days, while 
inspired by the revolution in Iran, were little interested in importing 
Iranian models into Lebanon. They yearned for an end to the violence 
that often took a heavy toll in Shi'i lives and property. In 1982, 
Israel invaded with grand plans to destroy the PLO and install a 
friendly Lebanese Government that would become the second Arab State to 
sign a peace treaty with Israel. The Israeli invasion occasioned great 
hope in Lebanon that the civil war would be finally be ended, 
especially since the PLO military apparatus was decimated. The dominant 
Shi'i group at the time, Amal, certainly shared the hope that a violent 
chapter in Lebanon's history was finished.
    In Washington, the Reagan administration seized upon the Israeli 
invasion as a strategic opportunity, and along with European allies 
launched the Multinational Force to help stabilize security in an 
around Beirut. Meantime, while Israel incrementally retrenched its 
forces, it established an occupation zone in southern Lebanon, the 
Shi'i heartland. That zone was not surrendered until 2000. Israel's 
occupation would contribute to the radicalization of the Shi'a and 
undermine more moderate voices, and was therefore counterproductive.
    An even more horrific chapter was, in fact, only beginning in 
Lebanon. Iran and Syria were important characters in that chapter, and 
those that followed. When recalling the horrendous decade of the 1980s 
in Lebanon, images of the ruins of the U.S. Embassy, the decimation of 
the Marine barracks and its hundreds of sleeping occupants, and the 
cruel captivity suffered by scores innocent hostages, some held for 
many years, leap to mind.
    With Iranian tutelage, a cadre of Lebanese Shi'is rejected Amal's 
relatively conciliatory stance and sought to reproduce Iran's 
revolutionary model in Lebanon. By the mid-1980s, they would coalesce 
into Hezbollah. A number of them participated in the hallmarks acts of 
violence and terrorism referred to above.
    In 1982, Syria permitted Iran to establish a foothold in Lebanon 
for a contingent of Revolutionary Guards. It should be noted, however, 
that Syria for many years was deeply suspicious of Hezbollah and there 
were several serious clashes between the Syrian army and Hezbollah 
militants. In fact, Syria lent much support to Amal, for which 
Hezbollah was the main rival. Particularly while President Hafez al-
Asad was alive (died: 2000), Syria often assiduously balanced the 
political gains of Hezbollah and Amal.
    Mr. Chairman, I begin with these recollections because I believe 
they are relevant to understanding the topic at hand, namely the 
strength of Hezbollah in 2010, and its ability to sustain impressive 
popular support in Lebanon.
    How did a relatively small group of revolution-oriented 
conspirators become arguably the most powerful and popular organization 
in Lebanon? I offer five key explanations:

  <bullet> Resistance to Israeli occupation: While Hezbollah was by no 
        means the only group challenging Israel's presence; it was by 
        far the most successful.
  <bullet> Institution-building: Recent decades have witnessed a 
        proliferation of social, cultural, and economic organizations 
        serving the Shi'i community, Hezbollah's are among the most 
        efficiently run and most admired. Lebanese opponents to 
        Hezbollah have acknowledged that it is really the only fully 
        institutionalized political party in the country.
  <bullet> Worldview: Hezbollah promotes an ideology that stresses the 
        importance of resistance, not just to foreign occupiers--and to 
        Israel and the United States in particular--but resistance to 
        injustice, corruption, and poverty.
  <bullet> Piety: Hezbollah advocates an expansive view of piety that 
        stresses commitment, engagement, community participation and 
        individual responsibility. While this conception of piety is 
        hardly unique to Hezbollah or to Shi'i Islam for that matter, 
        it is an important element in the organization's message to its 
        followers.
  <bullet> Pragmatism: At key junctures in its history, Hezbollah has 
        changed course, notably in 1992 when it put aside its 
        condemnation of Lebanese politics as ``corrupt to the core'' in 
        order to participate in elections and in the political process.

    When Israel unilaterally withdrew from its self-declared ``Security 
Zone'' (which accounted for roughly 10 percent of Lebanon's territory), 
in May 2000, Hezbollah was widely credited and celebrated in Lebanon 
for playing the leading role in forcing Israel to exit. Israel denies 
that it withdrew under pressure. The fact is that Hezbollah proved an 
increasingly potent foe. It is widely believed in Lebanon that Israel 
would still be occupying a large chunk of the country were it not for 
the antioccupation resistance.
    While Hezbollah's main rival, Amal, continues to enjoy support in 
segments of the Shi'i community, it has lost many of its supporters to 
Hezbollah. Much of the growing Shi'i middle class, in particular, grew 
disappointed with Amal's inefficiency, corruption, and its inability to 
be other than a large patronage network, which is not to say that they 
have necessarily joined Hezbollah.
    When I revisit many of villages and towns in South Lebanon that I 
first encountered decades ago, I see impressive evidence of a 
flourishing economy: new homes, good cars, competent public services, 
and a variety of institutions that did not exist before, such as modern 
clinics and decent schools. Many of these communities benefit from 
wealth earned in Africa, where Lebanese Shi'is play active roles as 
traders and entrepreneurs. In addition, a variety of religious 
foundations linked to revered Shi'i clerics, such as Ayatollah Ali 
Sistani, based in Najaf, Iraq, and Lebanon's own Ayatollah Muhammad 
Hussein Fadlallah, offer a range of services. Support for Hezbollah is 
by no means universal, but it is widespread in these towns and 
villages. Yet, we should remember that loyalties and affiliations run 
in many different directions.
    Whether they live in the Bekaa valley, the South or in al-dahiya 
the bustling, predominantly Shi'i suburbs of Beirut, families are 
typically linked to relatives in the other regions by marriage, 
nativity, or economics. The migration from the Bekaa and the South to 
al-dahiya is a relatively recent phenomenon, in that the surge from the 
countryside to the city began in the middle of the 20th century. So, 
not only is Lebanon a small country to begin with, but people living in 
the various regions typically have extensive networks of ties to the 
other regions. This is one reason why violence in one area quickly 
elicits a reaction in other settings. It is also why the Israeli 
occupation inspired so much resistance.
    With Syrian support and encouragement, Hezbollah insisted on 
keeping its arms despite Israel's exit in 2000. So long as Israel 
remained in Lebanon, Damascus could argue that the key to a secure 
northern border for Israel was in a peace agreement with Syria. The 
Israeli exit undermined Syria's leverage. Hezbollah argued that the 
Israeli withdrawal was incomplete since Israel continued to occupy a 
segment of Lebanese territory in the Golan Heights. More important, the 
group argued that unless Israel was deterred from returning to Lebanon, 
it would exploit Lebanon's weakness. This is not an argument that 
persuaded all Lebanese, or all Shi'is for that matter.
    As the afterglow of the celebrations ebbed, Hezbollah's rationale 
for keeping its weapons was increasingly challenged, particularly after 
the assassination of former Prime Minister Rafiq Hariri in February 
2005, and the exit of Syrian forces a few months hence.
    It bears emphasizing that the Israel-Lebanon border area was quiet 
from 2000 to 2006 by historical standards. In 1999, the last full year 
of Israeli occupation, there were over 1,500 military operations in 
southern Lebanon, according to the Israeli researcher Daniel Sobelman. 
In contrast, for the next 6 years, there were only a few dozen in 
total. Israeli military casualties averaged one-to-two soldiers 
annually, and there were only two civilian deaths attributable to 
Israeli or Hezbollahi fire. Notwithstanding commentary to the contrary, 
rockets were not routinely flying across the border into Israel.
    This period of relative quiet ended in July 2006, when Hezbollah 
captured two Israeli soldiers in a raid across the border into Israel. 
They had been trying to do so for months, in order to use the captives 
as bargaining chips to gain the release of Lebanese prisoners held by 
Israel, including one Lebanese convicted for his role in a deadly 1979 
terrorist attack in northern Israel. As the Hezbollah leader Hasan 
Nasrallah later acknowledged, he and his cohort failed to anticipate 
the fierce Israeli response that would follow. The result was a 
destructive war that lasted 33 days.
    Israeli generals overestimated the effectiveness of air strikes, 
and expected a relatively short campaign with the goal of crippling 
Hezbollah. Hezbollah proved a far more tenacious adversary than Israel 
anticipated. The war ended up displacing half a million Israelis and 
close to a million Lebanese. In addition to painful military losses on 
each side, 43 Israeli and more than 1,000 Lebanese civilians were 
killed. The material damage in Lebanon was severe, and included 78 
destroyed or badly damaged bridges, as well as 15,000 homes badly 
damaged or destroyed.
    Across the Arab world the war elicited widespread support for 
Hezbollah, although that support has since faded. More to the point of 
this hearing, the war prompted two opposing results in Lebanon: For 
some Lebanese Christians (who account for no more than one-third of the 
total population), and particularly for non-Shi'i Muslims, especially 
the Sunnis, Hezbollah's role in starting the war evinced animosity and 
anger, and underlined the need to disarm it and check its power. Local 
Sunni-Shi'i tensions erupted in several deadly clashes, but thankfully 
cooler heads prevailed, including within Hezbollah.
    These concerns intensified in May 2008, when Hezbollah and its 
allies took up arms against fellow Lebanese to thwart a government 
decision that would shut down its private fiber-optic communications 
network.
    The Lebanese victims of the 2006 war were overwhelmingly Shi'i 
Muslims, just as the areas targeted were predominantly Shi'i areas. The 
Beirut suburbs, Hezbollah's epicenter, were continually bombed and the 
line between civilian and military targets blurred quickly. At one 
point the Israeli Chief of Staff was quoted as directing that for every 
Hezbollah rocket striking Haifa, a 1-story building in al-dahiya would 
be destroyed. The result was that most Shi'a viewed the war as one 
conceived to target their community. This validated the Hezbollah 
resistance narrative, and the argument that unless Israel was deterred, 
it would invade Lebanon at will.
    I have sat in on informal debates about Hezbollah security role in 
Lebanese Shi'i villages. These were not academic debates, the real life 
concerns. The Lebanese Army is widely revered in Lebanon, probably 
because it is one of the few truly national institutions. Even so, the 
Army is not viewed as a credible force that is capable to defend 
Lebanon against Israel. Therefore, deferring to Hezbollah is seen as a 
necessary and realistic option, even by Shi'is who are ideologically 
distant from Hezbollah.
    Meanwhile Sunni-Shi'i tensions linger. These tensions were manifest 
in last June's elections when Sunni voters were mobilized en masse to 
support the Future Movement and vote against slates connected with 
Hezbollah. I saw this myself when I observed the 2009 elections in the 
Bekaa valley city of Zahle, and in some of the predominantly Sunni 
villages in the surrounding areas. Participation rates were very high, 
and the candidates sympathetic with Hezbollah received only 10 or 15 
percent of the total votes.
    However, Lebanese politics are by definition consensus politics. 
The idea that one sect or party can control or dominate the political 
system is far from the mark. Thus, when a new government was finally 
formed in Beirut, last fall, Hezbollah and its allies ended up with 
one-third of the ministerial posts and with the ability to block any 
decision that threatened to undermine the group's military power. The 
ministerial statement that announced the new government explicitly 
acknowledged Hezbollah's role in defending Lebanon. The declaration 
referred to ``the right of Lebanon through its people, Army and the 
Resistance to liberate the Shebaa Farms, the Kfar Shuba Hills and the 
northern part of the village of Ghajar as well as to defend Lebanon and 
its territorial waters in the face of any enemy by all available and 
legal means.''
    Since 2006, there has been an uncommon solidarity within the Shi'i 
community and Hezbollah has been the beneficiary. I argue that the 
solidarity of the Shi'i community is an aberration, it is an artifact 
of the recent war, as well as the fear that another war looms. This is 
a war that Hezbollah claims it does not seek, but that Israel is 
expected to launch. Preparations for that war are underway on both 
sides.
    During the late 1990s, while the Israeli occupation continued, 
Hezbollah's full-time military cadre numbered about 500 and was 
supplemented through a reserve system (in some ways similar to 
Israel's). By 2006, that number had doubled. Today, the standing 
military force is measured in the thousands. There is no way for a 
civilian researcher to reliably estimate the size of Hezbollah's 
arsenal, but by the group's own estimates its store of arms is far more 
robust and more sophisticated than it was in 2006.
    Despite the fears of war, the Israeli-Lebanese border has been very 
quiet since the 2006 war. UNIFIL, bolstered under Security Council 
Resolution 1701, has provided an effective buffer. While it has stopped 
Hezbollah from publically displaying weapons in the border region, it 
has not, however, impeded Hezbollah's ability to rearm.
    Unless Hezbollah can be decisively defeated by Israel--defeated in 
detail, in military parlance--the effect of another war would be to 
bolster Hezbollah, and to once again validate its narrative. For a 
variety of reasons, I believe that it is unlikely that Israel is 
capable of decisively defeating Hezbollah's hardened forces. The level 
of civilian casualties, probably on both sides, would be dreadful, and 
would prompt a fierce backlash in the Muslim world. Equally important, 
Israeli soldiers would have to go toe to toe with Hezbollah fighters 
who know the difficult terrain of Lebanon intimately and have a strong 
incentive to protect the homefront. The Israeli Army's comparative 
advantages, especially technical sophistication, largely disappear in 
close combat.
    Mr. Chairman, I have tried to explain the solidarity that currently 
exists within the Lebanese Shi'i community to the benefit of Hezbollah. 
Yet, there are a variety of divisions with the community as well. These 
include secular and clerical opponents of Hezbollah, and, of course, 
the longstanding rivalry with Amal. In addition, there are strong 
feelings in some quarters that Hezbollah is too closely aligned with 
Iran, and that the community's interests are better served through Arab 
as opposed to Persian ties. We see variants of these views in Iraq. 
These latent divisions will remain submerged as long as so many Shi'a 
feel that their community faces an existential threat. One key to 
reducing Hezbollah's mass appeal may be to reduce the threat of war, 
rather than heighten it. So long as the threat prevails, Hezbollah will 
be a prime beneficiary.

    Senator Casey. Doctor, thank you very much.
    We will go to our questions now. And I do want to note for 
the record, Ms. Pletka, you had mentioned in your statement. I 
am glad you made reference to this recent news. I guess it 
was--I can never tell where the dates are on some of these 
things. But recently, the news--this is a CNN report--an Ohio 
couple was arrested in Toledo for allegedly plotting to send 
money to the terrorist organization Hezbollah in Lebanon. 
Federal authorities said there was a Federal complaint filed, 
and it goes on from there. I won't read the story for the 
record, but it is a timely reminder of the reach of Hezbollah.
    I guess one of the questions I wanted to ask, and in 
hearings like this, we don't mind a little intrapanel debate. I 
know that Ambassador Crocker and Ms. Pletka were seemingly 
having the beginnings of a debate. We will save some time for 
that.
    But one of the questions hanging over this discussion, 
obviously, is something that each of you, in one way or 
another, referred to, and we all did in some way, some more 
pointedly than others, not the only question obviously, but one 
of the central questions is no matter what our Government does, 
no matter what our policy is, no matter how much money we 
spend, no matter how determined we are as it relates to the 
challenge posed by Hezbollah, if we don't have a partner, we 
don't have a willing partner in the Lebanese Government to not 
only have the right policy to deal with this challenge, but 
also to build up their own government, their own society, their 
own internal and army security forces, we are not going to be 
very successful.
    And I guess the question I have is that it seems that no 
matter what leader you point to, and I know Prime Minister 
Hariri is trying very hard. He is at the beginning of a--
somewhat at the beginning of a new administration, had a recent 
visit to Syria that got a lot of attention and we hope will 
bear fruit.
    But in some way or another, there is a sense that each 
leader in Lebanon has been co-opted to a certain extent, at 
least that is part of the perception. And given that fact, or 
at least that assertion, and given the political roots, I am 
using my own formulation, political roots that Hezbollah has 
implanted in the society, how can we play--or what is the best 
way for us to play a constructive role here? Instead of, I 
mean, obviously, we are going to be continuing to send aid, and 
we should. And we should track the dollars, make sure it is 
spent the right way and do all of the due diligence required.
    But is there something missing in our policy because of the 
reality that we see in Lebanon itself? Ambassador Crocker, do 
you want to take a shot at that?
    Ambassador Crocker. Thank you, Mr. Chairman.
    I think what we require most in Lebanon is consistency. 
Simply to take the decision that our best option in Lebanon, 
and I certainly don't see a better one, is sustained support 
for the Lebanese Government generally and the Lebanese Armed 
Forces in particular and to stick with it, making it clear to 
the Lebanese, the government, the military, and the population 
that we are a long-term partner. To make it clear in Syria and 
in Iran that we are not going to cede this field to them.
    I would make the same recommendation, incidentally, with 
respect to Iraq, Afghanistan, and Pakistan. One of our greatest 
challenges is overcoming our own strategic impatience and 
deciding this isn't working so let us try something else. That 
is what our allies have come to fear and our adversaries have 
come to count on in a variety of theaters, but we are talking 
today about Lebanon.
    So it is that consistency, a sustained message that we are 
there to support Lebanon. While it is true that some Lebanese 
have been co-opted, it is also true that probably more have 
been threatened and, indeed, assassinated. There is a lot of 
courage on the part of the Lebanese who are on a very difficult 
track and a very difficult position, and I think our 
understanding there is also important.
    So that would be my primary recommendation. Again, if there 
are magic bullets, I can't think of them. I think it is 
sustained engagement.
    And in the interest of doing my best to liven up this 
panel, I would note that Ms. Pletka and I had a discussion 
almost 20 years ago when I was the Ambassador to Lebanon and 
she was a member of the committee staff at age of 13 in which I 
lobbied with a singular lack of success for the committee's 
support in rebuilding a training and supply relationship with 
the Lebanese Armed Forces.
    Senator Casey. Was this debate on the record? [Laughter.]
    Ambassador Crocker. No, it wasn't. That was back when she 
had the luxury of being a staffer and could have these closed 
room sessions.
    Senator Casey. This is news, though. You just made some 
news here.
    Ms. Pletka. No, we didn't.
    Senator Casey. I wanted to just follow up on that. I want 
to have each of our witnesses address this question. But just 
on the question of having a more sustained engagement and some 
manifestation or demonstration of that.
    We recently had an interesting debate the last couple of 
years, which resulted in a new initiative for the Government of 
Pakistan. And of course, despite all of the hard work that went 
into that in the House and Senate and we were sending a message 
that we wanted to help on things other than military, when the 
news kind of landed in South Asia, there was some opposition in 
the Pakistani society. And some of that was political. We can 
discount some of it because people are playing domestic 
politics there.
    But it was a positive signal, I thought, to send that we 
were serious about the relationship. We wanted to help on 
things that weren't just military, wasn't just going to be a 
short-term relationship. It wasn't going to be just 
transactional or ad hoc or however you would describe it.
    Do you think in this instance there is a need for something 
if not a replica of that, but something other than this effort 
that we have highlighted, whether it was $139 million this year 
or hundreds of millions over the last couple of years? Do you 
think something that demonstrative or that significant is 
required, or do you think there are other ways to effectuate 
that, that relationship or that sustained engagement?
    Ambassador Crocker. Mr. Chairman, that is a great point. 
Again, I commend this committee for the legislation it did pass 
with respect to Pakistan. I think that was a very positive 
signal, particularly given the backdrop of our uneven 
relationship with Pakistan.
    And I, for one, would favor a similar approach to Lebanon 
that says we are in this for the long haul. If we were to take 
that approach, I would hope that we would not overly condition 
it because, again, it can actually have a negative rather than 
a positive effect. I think it is recognizing the region for 
what it is, Lebanon for what it is--a weak state with much 
stronger neighbors--and accept that this will take a long time, 
but commit to being in it for the long haul. I think it is a 
great idea.
    Senator Casey. Ms. Pletka? On the same broader question.
    Ms. Pletka. What Ryan didn't admit is that--and I was only 
12 then, by the way, not 13--he didn't admit that I was 
bludgeoned ultimately and my boss then was bludgeoned into 
supporting IMET, military education and training, for the 
Lebanese Armed Forces a mere year later, and great results 
there.
    I think that your question is an important one, but if I 
could just step back a second and ask an important question 
back at the committee and at those who support Lebanon and the 
relationship. What do we seek? What are we looking for out of 
this?
    We have a tendency, and I think all of us have a tendency 
because of our great affection and respect for the people of 
Lebanon and for our love of that country and our desire to see 
it independent, we have a tendency to talk about Lebanon in a 
sentimental fashion without talking about some of the hard-
nosed ambitions that we would normally have associated with our 
assistance programs. We are not giving $1.6 billion in 
assistance to a country because we really love them and they 
are pretty great.
    We are giving that assistance because we seek to build a 
relationship which serves our interests, and our interests are 
served by seeing Lebanon independent. Ryan is exactly right 
that we have an inconsistency of messages that we send, and I 
would suggest that we have once again reversed and decided to, 
in the vernacular, throw Lebanon under the bus in pursuit of a 
better relationship with Syria, thinking that that will serve 
our larger ambitions.
    But if we are seeking from Lebanon to see some curtailment 
of the threat that Hezbollah poses, the most potent terrorist 
organization next to al-Qaeda and perhaps better organized and 
better armed than al-Qaeda, if we are seeking to see them 
reined in, if we are seeking to see them not pose a threat, not 
pose the possibility of a conflict yet again this summer, which 
could embroil the entire region, then I don't think we are 
being very satisfied, OK?
    That is a tough question, and I think it deserves a tough 
answer. And the truth is that we haven't given one today. Yes, 
it is hard for Prime Minister Hariri. Yes, President Suleiman 
is in a rough position. Yes, Hezbollah has support.
    But if Hezbollah is a terrorist organization on the 
American list for an enormously long time, responsible for the 
death of American citizens, started a war 4 years ago, and 
could well start one again, then perhaps we need to say a 
little bit more than, isn't it kind of tough and really hard 
for the Lebanese Armed Forces to do what is necessary. They 
haven't done it, not after 16, 17 years of IMET and more than 
$1.6 billion. So that is my broader perspective on this 
question.
    Senator Casey. So you would argue they have been too 
accommodating in a sense?
    Ms. Pletka. I think that the Lebanese Government has been--
I think that in a perfect world they would not want to do this. 
I don't think that anybody likes going and bowing at the feet 
of Bashar al-Assad. I don't think they like it. I don't think 
they want to.
    Senator Casey. Let me ask you just a real practical kind of 
this year budget question. What do we do? Do you not send $139 
million? Do you condition it? Do you change the focus of it? 
What would you--I mean, if you were able to write the script, 
what would you do?
    Ms. Pletka. If I were able to write the script, I would 
absolutely condition it. I think this is not just a question, 
though, of writing things down in legislation, although that is 
the sine qua non of progress. People from the State Department 
always hate conditional legislation. I know that, but I would 
absolutely condition it.
    But I also think that aggressive oversight is enormously 
important. What we need to see is actually what is happening on 
the ground. We are not building up the Lebanese Armed Forces 
for the eventual possibility that maybe one day they could 
serve as an alternative to Hezbollah. The members of this 
committee were talking about a war this summer, right? That is 
not an eventual ``could, would'' scenario.
    So I think that that is enormously important, and I would 
absolutely condition it. But I would backstop it with very 
strong support for the Lebanese Government in standing up to 
Syria and to Iran and, when necessary, to terrorism within from 
Hezbollah.
    Senator Casey. Dr. Norton, the same question?
    Dr. Norton. Yes, I would like to come at it a little bit 
differently, Senator Casey. First of all, I want to begin by 
saying that Lebanese politics is an extremely messy process. I 
mean, this is a country which puts the ``C'' in consensus. You 
cannot imagine a government in the real world of Lebanon in 
which you have the domination of a single party or even a small 
group of parties.
    It is a messy, consensual process. And to expect in that 
context for the government to take a clear, unmitigated stance 
is, frankly, unrealistic.
    Here is the point that needs to be made: The current 
solidarity of the Shia community in Lebanon is an aberration. 
It is an aberration. It is a function of recent history. It is 
a function of a war and conflict and suffering.
    When you look at that Shia community, you see all kinds of 
different tendencies. You see different loyalties to different 
religious authorities--Sistani, Fadlallah, Shirazi, and so on. 
You see lots of different religious orientations. You see the 
old Amal-Hezbollah tensions. You see various secular forces in 
the Shia community.
    If you want to undermine the base of Hezbollah, which is 
really the thrust of today's hearing, it seems to me, then what 
you need to do is create conditions in Lebanon in which people 
feel more secure, and in that context, building up the army I 
think is a good thing. Building up the Internal Security 
Force--ISF--is a good thing.
    And as a government, it seems to me, the United States 
should be working very hard to make sure that we do not have 
another replay of a summer war that leaves a very unsatisfying 
result and perhaps even strengthens Hezbollah as an outcome. So 
it seems to me those two things are very, very important. 
Strengthening the internal infrastructure, yes, and also 
tamping down the possibility of war.
    And I should say that when you look back at the history, 
for example, 2000 to 2006, notwithstanding one of the comments 
of one of your colleagues, that was a very quiet period of 
time. There was one Israeli civilian killed. There was one 
Lebanese civilian killed. There were a total of nine Israeli 
soldiers killed, far less than the preceding period of 20 
years.
    And in fact, the year before the Israelis withdrew in 2000, 
there were 1,560 military operations in south Lebanon. So the 
point is that there is a possibility of ``rules of the game'' 
being observed and the border region continuing to be quiet, 
and it has been quiet, of course, since the 2006 war.
    There needs to be a real focus to make sure that we don't 
have a replay of the summer war. That would be a disaster not 
just on the human level, but for U.S. foreign policy interests, 
in my view.
    Senator Casey. I wanted to--I do think, though, when we 
think of what transpired in 2006, some 4,000 rockets into 
Israel is a disturbing indication of what was taking place 
there. And Ms. Pletka, you mentioned--I am trying to recall the 
source--in your testimony that I guess it was a Hezbollah 
source telling a journalist about the potential daily fire 
power? What was that number?
    Ms. Pletka. That was--it was Hezbollah sources in an 
interview with a Kuwaiti paper, Al Rai, which frequently 
reports on this, saying that the group had the capability to 
launch 15 tons of explosives at Israel every day in the case of 
another war.
    By the way, Senator, I would only correct there was a 
soldier killed on the border, an Israeli soldier killed by a 
Hezbollah antitank rocket earlier this year. So the border 
hasn't been quiet, and I don't think that those 600 tons of 
buried weaponry that UNIFIL found was intention of any further 
quietude on the part of Hezbollah either.
    Senator Casey. And let me go back to a point that each of 
you have made in one way or the other, or at least referred to 
it, and it is an important area of review. And that is apart 
from the obvious and I think a compelling threat that Hezbollah 
poses militarily and apart from the building up of the security 
forces, this whole other set of questions that are nonmilitary 
in nature, which is what is happening on the ground in an 
economic or societal sense with the Lebanese people?
    I mean, I asked in the session we had with Prime Minister 
Hariri. I had come into the meeting late, and they had covered 
a lot of the other questions. But one thing I asked him was 
about his own economy. He kind of walked through the state of 
play there.
    But I guess I would ask you what can you tell us about--
because I am trying to remember who now referred earlier to the 
growth rate, and there are some good indicators there. But what 
do you think has to happen to give people a better sense of 
economic security that obviously plays a role in whether 
someone can be radicalized or not or can be susceptible to any 
kind of approach that Hezbollah would make to citizens? Is 
there an economic need there, or is there a hole in the 
economy, or is there a job or growth challenge that we haven't 
really talked about yet?
    Anyone who wants to start.
    Ms. Pletka. I would love to start. I think that as 
Professor Norton said rightly and as Ambassador Crocker said, 
Hezbollah has successfully exploited a hole in Lebanon. The 
Shia have been a traditionally underprivileged, maltreated, and 
ignored group, largely concentrated in southern Lebanon. The 
group that previously was their political representative, Amal, 
is enormously corrupt, and didn't do anything for them. The 
Council of the South, which is meant to provide money to them, 
very rarely did anything effective.
    But here is the problem: We provide aid, and we actually 
focus some of our aid on the south. But Hezbollah is able to 
step in with money that they receive from Iran and elsewhere, 
and they are able to buy loyalty. They are able to buy 
projects. In the wake of the 2006 war, they committed to 
rebuild houses almost immediately. Governments don't--normal 
governments like ours don't work quite that efficiently.
    One of the things that would be really nice to see is an 
end to Iranian money sloshing around inside Lebanon. If the 
Republican Party--let us just pick a party, since there are no 
Republicans here--was receiving tens of millions of dollars in 
support from a foreign country, which it was then taking to 
use, to pass around for walking around money, it would be a 
giant scandal. And yet this money is sloshing around inside 
Lebanon to benefit one particular party, which they spread 
around to buy loyalty.
    If that changed inside Lebanon, I think a lot of the 
dynamics would change, too. And we need to also press the 
government--the legitimate government--to actually take care of 
their population in need.
    Senator Casey. The best estimate now, a couple hundred 
million from Iran every year? Is that the----
    Ms. Pletka. It is probably more than that. I don't think 
anybody knows directly because some of it comes via banks and 
some of it comes via suitcases. But it is at least $200 million 
just in cash. That doesn't count the value of the weaponry.
    Senator Casey. Ambassador Crocker.
    Ambassador Crocker. I would absolutely endorse Ms. Pletka's 
last point. Lebanon is something of a democracy. Constituent 
views count. And right now, unfortunately, the substantial 
majority of Shia support Hezbollah, both as a source of Arab 
pride, standing up to America and Israel, but also because they 
provide the benefits, thanks to Iranian largesse.
    The Lebanese Government could do more, and I think we 
should press it to do more to overcome some of these 
inequities. Ambassador Feltman spoke of something like 8 
percent annual GDP growth. Well, that is not happening in 
places like Bourj el-Barajneh in the southern suburbs, and the 
contrasts are absolutely striking to go from the rebuilt 
commercial center of Beirut or the Maronite neighborhoods of 
Ashrafia a few short miles into the southern suburbs, and you 
have gone half the world away.
    And it feeds this narrative of the Shia as the deprived and 
the dispossessed, and that is a narrative that is generations 
old, as I noted in my statement. You have got to change that 
narrative, I think, before you can, over the long term, change 
the dynamic that supports Hezbollah within Lebanon.
    And if there is a way to get after the money, as Dani 
suggests, or if there are more ways to think creatively about 
getting after the money, that would definitely be worth 
pursuing.
    Senator Casey. Do you think that has been--that problem has 
been exacerbated substantially since you were serving there? Or 
is there any way to compare the two time periods?
    Ambassador Crocker. And I don't--I haven't been in Lebanon 
for some years now, but my sense is that the differences have 
been exacerbated, that the extraordinary growth in the non-Shia 
parts of Lebanon, in Beirut itself and to the north, since the 
early 1990s has, once again, made Beirut look like the Geneva 
of the Middle East.
    The development of the southern suburbs and the south, 
while there has been some, has been far, far less. So I think 
the disparities now loom even larger than they did back in the 
days of the civil war itself.
    Senator Casey. Dr. Norton, you had something?
    Dr. Norton. Well, first of all, I would emphasize the fact 
that Lebanon is a wonderful country, great place to visit. As I 
frequently tell my students, it is not, however, someplace 
where you want to be poor. There is no safety net.
    And the government has never been particularly 
conscientious about providing a safety net. And if you are in 
need, then you have to depend on family or institutions or 
religious groups or whoever else is willing to help you. And 
that has not changed, and in my opinion, it may not change.
    And I must also underline, I know we are talking largely 
about the Shia community. But, Senator Casey, I would also 
invite you, if you visit Lebanon, to visit north Lebanon, which 
is largely a Sunni area, north of Tripoli. If you want to see 
utter poverty and literally hundreds, thousands of young, 
sullen men sitting around because they don't have work, 
available to be mobilized by this or that group. You have got a 
real problem on your hands. So it is not just the Shia 
community.
    And I would say, and I tried to hint at this in my 
statement, that in many ways, the Shia community has done 
pretty well over the last decades. There has been an awful lot 
of money coming in from Africa, private money. There is a 
developing and growing middle class. It doesn't look like 
downtown Beirut, but it is coming.
    And some of these villages that I knew three decades ago 
that didn't have water or electricity and so on, you go to them 
now, you find banks, and you find functioning services and even 
municipal swimming pools and so on. So things are coming along, 
but there certainly are great pockets of poverty.
    But it is a formidable challenge to get the Lebanese 
Government engaged on dealing with those segments of the 
population--Christian, Muslim, whatever they may be--that are 
really in need. That really hasn't been a strong suit of any 
Lebanese Government in my recollection.
    Senator Casey. Well, thank you very much.
    I know we have to conclude. I wanted to keep within our 1-
hour promise and especially for those who are traveling. But we 
are grateful for your testimony. We learned a lot.
    We will use the hearing as a way to consider policy in this 
area. If you have anything additional that you want to submit 
for the record, we will leave the record open for a couple of 
days at least.
    Thank you very much, and that concludes our hearing.
    [Whereupon, at 5:02 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


Responses of Assistant Secretary Jeffrey Feltman to Questions Submitted 
                       by Senator James E. Risch

    Question. Even though Hezbollah's coalition lost parliamentary 
elections, they have now asserted effective control over major 
decisions within the new Lebanese Government. Lebanon's President 
Suleiman has expressed his support for Hezbollah, saying all the 
Lebanese are united behind the resistance and no one in Lebanon, 
especially the government, will harm the resistance's status. Hezbollah 
continues to amass greater quantities and qualities of offensive 
weapons, including in areas under the UNIFIL mandate. Hezbollah now has 
over 40,000 missiles and possibly now Scud missiles which can reach 
virtually anywhere in Israel. We have provided substantial assistance 
to the Lebanese Government and the Lebanese Armed Forces in the past 
and the President requested $100 million in military assistance and $30 
million in security assistance for Lebanon for FY 2011.

  <bullet> Given the central role Hezbollah plays in the Lebanese 
        Government--the complete failure of the Lebanese Army to disarm 
        internal militias; and the overall political stance taken by 
        the Lebanese leadership vis-a-vis Hezbollah, an organization 
        the United States categorizes as a terrorist entity--how do we 
        manage our relations with the Government of Lebanon and not 
        deal with Hezbollah? With the role Hezbollah plays throughout 
        the government, what assurances can you give us that we aren't 
        dealing with a terrorist organization? At what point, does the 
        influence of Hezbollah taint the legitimacy of the overall 
        government?

    Answer. Our policy on Hezbollah remains unchanged. Hezbollah, in 
its entirety, is a designated Foreign Terrorist Organization and we 
have no contact with the group or any of its members. This policy will 
not change until this militant group disarms, renounces violence, and 
adheres to the authority of the Lebanese state.
    As we've done in the past, in the two ministries run by a Hezbollah 
minister, we are able to pursue U.S. interests successfully by 
interacting with lower level civil servants at those ministries, while 
maintaining our no contact policy with Hezbollah officials.
    Moreover, the United States uses vetting procedures, end-use 
monitoring of defense articles, and other controls to mitigate the risk 
that Hezbollah may receive direct or indirect benefits from U.S. 
assistance. In fact, our support to Lebanon's security services is 
designed to strengthen the authority of the Lebanese state as the sole 
decisionmaker on Lebanon's national security. In conjunction, our 
economic and development assistance helps Lebanon develop credible and 
transparent institutions, strengthen the role of civil society, support 
the independence and efficiency of the judicial system, and increase 
economic opportunities. Over the long term, these efforts provide 
credible alternatives to extremist groups, as we continue our support 
for the creation of a sovereign, independent, and stable Lebanon.
    We believe that the Lebanese people deserve the opportunity to 
chart their own political course free from internal conflict and 
external interference, and that a strong, sovereign Lebanon will yield 
a more stable Middle East. The composition of the government is an 
issue for the Lebanese alone to decide. We will continue working with 
those partners in Lebanon who share our objectives of combating 
terrorism, implementing U.N. Security Council Resolutions 1559, 1680, 
and 1701, and expanding the state's authority over all of Lebanon's 
territory. Our strong support for Lebanon's state institutions is 
designed to support these goals.

    Question. How will U.S. aid to Lebanon be affected in light of 
Hezbollah's growing role in the government? How do we provide Lebanon 
with assistance and ensure that it doesn't benefit or strengthen 
Hezbollah?

    Answer. Our assistance is designed to strengthen Lebanon's 
independence and sovereignty by increasing the government's capacity to 
provide for the security and socioeconomic needs of its citizens. It is 
critically important that we continue this process to ensure the long-
term stability of Lebanon and the region. Throughout this process, our 
vetting procedures, end-use monitoring of defense articles, and other 
controls mitigate the risk that Hezbollah may receive direct or 
indirect benefits from U.S. assistance.

    Question. The FY 2010 appropriations bill included tight 
congressional oversight on the use of military assistance funds to 
Lebanon, making funds available only to professionalize the LAF, 
strengthen border security, interdict arms shipments, and combat 
terrorism. Will the administration hold itself to the same guidelines 
and reporting requirements?

    Answer. We will adhere to congressional reporting requirements.

    Question. How would you assess the progress of the LAF's training 
and performance?

    Answer. Our security assistance promotes the extension of Lebanese 
Government control throughout the country--especially in the south, 
along the border, and in Palestinian refugee camps--in accordance with 
U.N. Security Council Resolutions 1559, 1680 and 1701. Our engagement 
enhances the professionalism of Lebanese security forces, builds ties 
to Lebanon's political leadership, and reinforces civilian control of 
the military; we have seen concrete improvements in these areas. For 
example, the LAF has demonstrated on multiple occasions its cooperation 
with UNIFIL to respond, investigate and prevent incidents on the border 
with Israel, calming tensions.
    The LAF is an active participant in U.S. service courses, and in 
FY09, over 130 students attended Officer Basic and Advanced courses, 
including Infantry, Field Artillery, and Armor classes. With the help 
of the United States, approximately 150 students to date have completed 
counterterrorism (CT)--relevant courses, such as Urban Operations and 
Long Range Marksmanship. The CT training helps the LAF cooperate with 
the United States in the fight against international terrorism by 
providing education and training to bolster the LAF's ability to 
detect, monitor, interdict, and disrupt terrorist activities. Over 200 
LAF officers have attended Combating Terrorism Seminars, in which the 
key themes are defining threats, assessing national responses, 
strategies, and best practices for combating terrorism, and strategies 
for enhancing regional and national cooperation. The LAF also is 
working with CENTCOM to develop a long-term strategic plan.
    We also must continue our efforts to prepare Lebanon's Internal 
Security Forces to successfully accomplish their mandate--to help build 
safe, secure communities and extend the rule of law to each of them. 
Without a strong ISF and LAF, Lebanon's existence as an independent and 
democratic state will be jeopardized, increasing the risk of 
instability in Lebanon and the region. That is a risk we cannot take.

    Question. You have stated that there has been ``no seriousness in 
implementing'' Security Council Resolution 1701 which requires 
Hezbollah's disarming and sought to end weapons smuggling to Lebanon. 
Can the United States do anything to better enforce Resolution 1701? Do 
you still have faith in UNIFIL to carry out its mandate? What could be 
done to strengthen that mandate when UNIFIL's reauthorization comes 
before the United Nations?

    Answer. Achieving full implementation of U.N. Security Council 
resolution 1701-- including its call for Lebanon to establish a 
weapons-free zone in the south, secure its borders, and ensure that all 
weapons in Lebanon remain under the control of the Lebanese state and 
UNIFIL--remains a top priority for the United States. More must be done 
to implement this resolution and we will continue to urge further steps 
by Lebanon, Israel, and Syria. It is crucial that those states with 
ties to armed groups in Lebanon end their illegal supply of weapons and 
other material support, which continue to pose a danger to both Lebanon 
and the region.
    President Sleiman and Prime Minister Hariri consistently reiterated 
their commitment to Resolution 1701, a commitment enshrined in the 
government's ministerial statement, and we look forward to continuing 
to work with them toward this goal. Specifically, we are urging Lebanon 
to take more assertive steps to combat weapons smuggling, enforce the 
weapons-free zone in the south, and begin the process of militia 
disarmament by implementing the 2006 and 2008 decisions of the National 
Dialogue to disarm Palestinian groups outside Lebanon's refugee camps.
    Our security assistance and commitment to building strategic 
relationships with the Lebanese Army and police will continue to 
support these efforts, as has our financial support to UNIFIL. We have 
confidence in UNIFIL and its commander, Maj. Gen. Asarta Cuevas, who 
succeeded Maj. Gen. Claudio Graziano of Italy in January 2010. He has 
extensive and wide-ranging experience, including significant command 
expertise and prior experience with United Nations peacekeeping. 
UNIFIL, under its current Chapter VI mandate, remains the best 
available option to assist the LAF in taking steps toward keeping 
southern Lebanon free of unauthorized armed personnel, assets, and 
weapons. Ultimately, it also presents the best platform for the parties 
to move toward a permanent cease-fire and a long-term solution that 
includes the complete disarmament of all militias in Lebanon, including 
Hezbollah.

    Question. We contributed $67.5 million to USAID's programs in 
Lebanon in 2009. USAID invested these funds in a range of areas that 
Lebanon has identified as priorities including support for increasing 
democratic practices and promotion of the rule of law; strengthening 
civil society and education. These funds are part of a U.S. effort to 
strengthen the Lebanese Government in the face of Hezbollah. However, 
with Hezbollah taking on a greater role within the government and now 
with the recent reports of Syria transferring Scud missiles to 
Hezbollah, I wonder whether this assistance can have the desired 
effect.

  <bullet> Are there willing partners that will take assistance from 
        the U.S. Government? Do they have to conceal the United States 
        as a source of their funding? Are we able to ensure the 
        oversight through site visits and other inspections to ensure 
        U.S. assistance is being used appropriately?

    Answer. There are many individuals, groups, and communities willing 
to partner with us the United States Government in Lebanon.
    USAID/Lebanon follows required agency directive--ADS 320, which 
provides policy and directives regarding ``Branding and Marking.'' All 
missions must adhere
to the procedures for branding and marking USAID-funded programs, 
projects, activities, public communications, and commodities, in order 
to identify them as assistance ``from the American people.'' There are 
exceptions in the ADS when it is determined that branding would not in 
the best interest of the USG. Such a determination is made on a case-
by-case basis. USAID/Lebanon has seen an increased ability over the 
past number of years in being able to brand and mark our programming in 
areas where previously it was difficult to do so.
    USAID has full oversight of all of programs implemented in Lebanon 
and provides the appropriate level of inspection and site visits of 
activities implemented with USG economic assistance funding. USAID as 
well as Foreign Service National staff employed by the mission visit 
project activities and must report on site visits in accordance with 
audit and other requirements.

    Question. What is the policy of USAID in working with a government 
whose members include representatives of a terrorist organization? Can 
you ensure that these funds do not benefit Hezbollah in any way? What 
safeguards are in place to ensure this?

    Answer. USAID follows USG contact policy regarding Hezbollah. 
Should there be a need to work with a ministry whose minister is a 
Hezbollah member, USAID staff only engage that ministry at a lower, 
working level, maintaining our no contact policy with Hezbollah 
officials. Currently the Ministry of Agriculture is led by a Hezbollah-
affiliated minister, and USAID has successfully developed our new 
programs to avoid any need to interact with this minister. To ensure 
that USAID is not funding any Foreign Terrorist Organization (FTO), 
USAID utilizes a variety of vetting and certification procedures, such 
as: mandatory anticertification clauses within all assistance 
agreements, including grantees; checking all of our partner 
organizations against the Office of Foreign Assets Control (OFAC) 
public database and other relevant sources to determine that the 
recipient does not have ties to terrorist groups; requiring all 
nongovernmental recipients of assistance to sign antiterrorism 
certifications by which they certify that U.S. assistance will not be 
used to provide support or resources to terrorists; and requiring 
recipients to implement monitoring and oversight procedures to 
safeguard against U.S.-provided assistance being diverted to support 
terrorist activities.

    Question. How much does USAID plan to spend in Lebanon next year? 
What specific projects do you expect to fund?

    Answer. USAID's program in Lebanon for FY09 was $67.5 million and 
in FY10 will be $109 million. The FY 2011 request is $109 million. 
Within the new USAID 2009-2013 strategy, USAID seeks to ``educate the 
youth and provide employment opportunities, so that Lebanese have an 
alternative to the lure of negative actors in Lebanon.'' USAID funds 
programs that target governing institutions and civil society 
organizations to be more responsive to Lebanese citizens by supporting 
the rule of law and providing technical support for the judiciary, 
supporting basic education for public schools, providing higher 
education scholarships, and training participants in transparency and 
accountability through grants. USAID also provides microfinance 
programs, private sector competitiveness programs, and supports 
environmental initiatives, such as reforestation and improvements in 
the water supply and sanitation infrastructure. A central component of 
these programs is USAID's focus on youth and reconciliation.

    Question. What is the goal of USAID projects in Lebanon? Have USAID 
programs strengthened the forces of moderation in Lebanon?

    Answer. A strong, stable, and secure Lebanon is critical to U.S. 
interests in the Middle East, including our pursuit of a comprehensive 
regional peace and efforts to constrain Iranian influence in the 
region. In line with these objectives, USAID's programs support 
Lebanon's efforts to rebuild its sovereignty, develop democratic 
principles, and expand economic viability of the country. Under its 
Lebanon strategy, USAID is working to offer the Lebanese an alternative 
to the lure of negative actors, especially critical for at-risk 
populations such as youth and the unemployed. Over the long term, these 
efforts provide credible alternatives to extremist groups, such as 
Hezbollah. It is clear that both existing and future programs are 
strengthening the forces of moderation in Lebanon. The ability of these 
programs to expand into areas previously impenetrable is a clear 
indicator that we are meeting and exceeding our expectations to 
accomplish this goal. We continue to see increased support for USAID 
programs throughout Lebanon, including vulnerable areas in the North, 
Bekaa and the South. These programs are designed to adapt to the 
unpredictability of the political and security environment and to 
address the underlying causes of conflict, such as poor education 
standards and lack of employment after completion of education and poor 
governance.

    Question. It is now widely reported and understood that Syria 
recently transferred more advanced missiles and weaponry to Hezbollah 
and, according to Israeli reports, Hezbollah crews may be training on 
Scud launchers in Syria. The missiles being discussed have a longer 
range and greater accuracy than those previously held by Hezbollah and 
would put the entire State of Israel in range. This provocative action 
by Syria raises very serious questions about President Assad's true 
intentions in the region and could force military conflict in the short 
term.

  <bullet> What can you tell us about what the Syrians actually 
        transferred to Hezbollah and when?

    Answer. We have information confirming that Syria has transferred 
ballistic missiles to Hezbollah. This is a sensitive issue, and we 
would be happy to discuss any details beyond that in an appropriate 
venue.

    Question. Do you believe such arms transfers could take place 
without the approval or consent of the Lebanese Government? What are 
Lebanon's responsibilities when it comes to stopping the flow of arms 
to Hezbollah?

    Answer. Hezbollah has made no secret of its efforts to rearm since 
2006, as noted by Hezbollah leader Hassan Nasrallah who said, ``For 
those who are still calling for disarming the resistance, I tell them 
this rhetoric is . . . useless.'' Hezbollah's efforts to rearm 
contravene a number of U.N. Security Council resolutions and the Taif 
accord, which brought an end to Lebanon's brutal civil war. Hezbollah 
continues and will continue to present a danger to Lebanon and the 
region's stability until it lays down its arms. All parties, whether in 
or neighboring Lebanon, must adhere to their obligations under the 
terms of U.N. Security Council Resolution 1701--particularly the arms 
embargo--and continue to fully support the efforts of the Lebanese 
Government to implement these provisions, and of UNIFIL to support it.

    Question. What steps will you take to ensure that Syria acts to 
stop the flow of arms to Hezbollah? Has the administration laid out the 
consequences to Syria if they continue this destabilizing behavior?

    Answer. This is a sensitive issue, and we would be happy to provide 
additional details in an appropriate venue.

    Question. Syria has had a chemical weapons program for many years 
and according to the Director of National Intelligence, has the 
capability to deliver chemical agents by plane, ballistic missile, and 
artillery rockets. Do we know whether Syria has transferred chemical 
weapons to Lebanon?

    Answer. We are not aware of any state that has provided chemical 
weapons to a terrorist group. The Syrian Government knows that 
transferring a chemical weapon to Hezbollah would be a serious breach 
of its obligations under U.N. Security Council Resolution 1540.

    Question. Given the range of the Scud missile and other armaments 
in Hezbollah's arsenal, does UNIFIL's mandate need to be extended to 
all of Lebanon to deal with these long-range weapons?

    Answer. UNIFIL continues to play a crucial role in maintaining 
stability and preventing further Hezbollah attacks from southern 
Lebanon, such as those that sparked the 2006 war in Lebanon between 
Hezbollah and Israel. With a Chapter VI mandate, UNIFIL actively 
assists the LAF in taking steps toward keeping southern Lebanon free of 
armed personnel, assets and weapons other than those of the Government 
of Lebanon and of UNIFIL deployed in this area. Based on ongoing 
assessments by the U.N., we believe that UNIFIL has the tools needed to 
implement its mandate. In fact, we are pleased that UNIFIL has grown 
more assertive in response to recent incidents in its area of 
operations.
    While there is much more work to do before we can say that we have 
fully implemented Resolution 1701, it remains the best available 
blueprint for the parties to move from the current cessation of 
hostilities toward a permanent cease-fire and a long-term solution. As 
we saw during the devastating 2006 war with Israel, Hezbollah's 
successful disarmament cannot be brought about through military means 
and ultimately, will require a political decision by the Lebanese 
people themselves in favor of full disarmament of Hezbollah. This is 
most likely to happen in the context of the comprehensive regional 
peace we seek to achieve. As we work toward this goal, we also are 
continuing our efforts to support the Lebanese Government's development 
of an effective border control regime and the development of Lebanon's 
legitimate security services, the Lebanese Armed Forces and Internal 
Security Forces.

    Question. How would you assess UNIFIL's performance since the last 
Lebanon war in stopping the flow of Syrian arms to Lebanon? It seems 
that they completely failed to stop the smuggling of rather large Scud 
missiles; it makes one wonder what else might Syria be sending into 
Lebanon?

    Answer. With a Chapter VI mandate, UNIFIL actively assists the LAF 
in taking steps toward keeping southern Lebanon free of armed 
personnel, assets and weapons other than those of the Government of 
Lebanon and of UNIFIL deployed in this area. UNFIL has grown more 
assertive in response to incidents in its area of operations. For 
example, last December a UNIFIL patrol spotted men engaged in 
suspicious activity. UNFIL investigated and discovered 250 kg of 
explosives. The September 11, 2009, rocket firing into Israel from 
southern Lebanon was limited by prompt action by UNIFIL troops and the 
LAF. Fortunately, the rocket caused no casualties. UNFIL continues to 
play a crucial role in preventing violence along the Blue Line and 
attacks from southern Lebanon, such as those that sparked the 2006 war 
in Lebanon between Hezbollah and Israel. UNFIL has made steady progress 
to visibly mark the Blue Line. Sixty-nine points have been agreed on by 
the parties, with 40 markers already installed, and 23 markers under 
construction. UNFIL is providing engineering assets to assist the 
Lebanese Armed Forces in building a road parallel to the Blue Line, 
which will assist with patrolling and allow security forces to react 
more rapidly to incidents.
    Due to the efforts of UNIFIL and the LAF, since 2006, the Blue Line 
has been stable and significantly quieter than in previous years. This 
is no small accomplishment. During this period, UNIFIL has registered a 
number of notable successes. First, UNIFIL has kept the peace by 
working closely with the LAF to fill the space in South Lebanon to 
prevent others, in particular, Palestinian rejectionist groups and 
Salafist offshoots, from having free reign to fire rockets toward 
Israel. In the handful of instances where we saw small missiles 
launched, UNIFIL moved quickly to respond and investigate, while 
continuing its efforts to work with the LAF to prevent additional 
incidents. UNIFIL continues to play a critical role in calming 
tensions, improving communication, and preventing escalation in the 
wake of incidents such as rocket firings, arrests of people crossing 
the border, or heated demonstrations on the border. Second, through the 
tripartite mechanism, UNIFIL continues to pursue serious negotiations 
over Israeli withdrawal from Ghajar. These negotiations, if successful, 
ultimately will show that diplomatic engagement can accomplish more 
than armed resistance. Finally, UNIFIL has made measurable progress in 
demarcating the Blue Line, a key component in maintaining stability 
south of the Litani.
    We are able to provide additional information in an appropriate 
venue.

    Question. The Cedar Revolution saw an end to Syria's occupation of 
Lebanon but, despite the exchange of ambassadors, Syria still meddles 
in Lebanese internal affairs. High-level Syrian officials have been 
implicated and there is suspicion that the Syrian intelligence service 
was directly involved in the assassination of former Lebanese Prime 
Minister Rafik Hariri. Additionally, Syria continues to facilitate the 
smuggling of weapons across the border to Hezbollah, which is in direct 
violation of U.N. Security Council Resolution 1701.

  <bullet> Have relations improved between Syria and Lebanon since the 
        exchange of ambassadors?

    Answer. We are pleased to see both Lebanon and Syria working to 
normalize their bilateral relations. We expect that Lebanon and Syria, 
as neighboring countries with strong familial and historic bonds, will 
have close ties; however, this relationship must be on equal footing. 
While the exchange of ambassadors last year was an important first 
step, much work remains to be done, especially in terms of border 
security as outlined in Security Council Resolution 1701. During 
President Sleiman's June 2010 visit to Damascus, President Asad agreed 
to call on technical committees to continue gathering information with 
a view toward delineating the border as soon as possible.

    Question. What is the state of the relationship today and what role 
does Syria now play inside Lebanon?

    Answer. Lebanon held successful parliamentary elections in June 
2009. These elections clearly demonstrated that the people of Lebanon 
continue to support those principles that guided the Cedar Revolution 
and Lebanon's march to independence in 2005. After roughly 5 months of 
negotiations, the Cabinet was formed in December. The municipal 
elections in May were another step forward. These were important steps, 
but Lebanon has much to overcome after decades of civil war and 
occupation. Our robust assistance to Lebanon, over $1 billion since 
2006, is working to support this process by strengthening key state 
institutions improving their ability to meet the needs of Lebanon's 
citizens.
    Syrian support for Hezbollah continues to be a major issue. More 
broadly, we continue to emphasize to Syria that any arms transfers to 
Hezbollah are a major problem. We believe that Syria's arming of 
Hezbollah presents a significant threat to regional stability. As Syria 
and Lebanon continue working to normalize their bilateral ties, Syria's 
full implementation of the arms embargo, as called for in UNSCR 1701 is 
essential. The United States supports the Government of Lebanon and its 
efforts to assert its complete authority throughout the entire country. 
We note the numerous U.N. Security Council resolutions, including 
Resolutions 1559 and 1680, and other international calls for the 
disarmament of all militias in Lebanon, including Hezbollah.
                                 ______
                                 

     Responses of Augustus Richard Norton to Questions Submitted by
                         Senator James E. Risch

    Question 1. You've previously stated that is actually becoming a 
moderate organization which has moved away from their activities in 
Iraq. With that in mind, what do you make of their networks in East 
Africa, as well as their attempt to commit terrorist acts in Azerbaijan 
and other countries?

  <bullet> Given's and Iran's activities in Egypt, East Africa, and the 
        Gulf of Aden, how do you read Hasan Nasrallah's recent threat 
        to strike at Israel's Red Sea port?
  <bullet> How do you explain that Sayyid ali al Amine, the Shia Mufti 
        for south Lebanon, its major stronghold, is so critical of the 
        terrorist organization?

    Question 2. You've argued that was ``Lebanonized.'' How do you 
explain Nasrallah's continued explicit declaration that he was a 
follower of the velayat-e faqih doctrine, which holds Iran's Supreme 
Guide to be a final and only arbiter on all matters related to Jihad, 
for example? Just the other day, at the memorial ceremony of the death 
of Ayatollah Khomeini, Nasrallah declared that there was a need to 
continue Khomeini's mission of spreading the ideas and values of the 
Islamic Revolution in the Arab and Islamic States. How do we reconcile 
these statements with ``Lebanonization''?

    Answers. I have characterized Hezbollah as a Janus-faced 
organization that combines a militant commitment to armed 
``resistance'' while also participating in Lebanese sectarian political 
system. I have not described Hezbollah as a ``moderate'' group. In 
fact, I have described its involvement in terrorism, as well as its use 
of political violence. These perspectives may be found in my recent 
book (``Hezbollah: A Short History,'' Princeton University Press, 2009) 
and in a variety of other publications and presentations (for instance, 
see my 1999 Council on Foreign Relations occasional paper, ``Hizballah 
of Lebanon: Extremist Ideals vs. Mundane Politics.'')
    Hezbollah's Janus-faced posture reflects the group's evolution 
since it was founded under Iranian tutelage in the early 1980s, 
following the 1982 Israeli invasion of Lebanon. Two Israeli Prime 
Ministers, the late Yitzhak Rabin and the Ehud Barak, have reflected on 
the fact that it was Israel's invasion and occupation of Lebanon that 
provided a rationale for Hezbollah. This is important to note because 
it was precisely Hezbollah's skill in fighting the Israeli Army and 
Israel's proxy militia forces that helped the group gain credibility in 
Lebanon.
    Over nearly three decades, the group has gained a much broader 
political base in Lebanon. This is for a number of reasons, including 
Hezbollah's success in creating an array of effective social and 
economic institutions. As Senator Corker noted in his comments during 
the subcommittee hearings on June 8, there are a number of Lebanese, 
Shi'a in particular, who share Hezbollah's worldview, and fully support 
Hezbollah's argument that in the absence of a strong Lebanese Army they 
must depend on Hezbollah to deter Israel. My own research confirms that 
the 2006 war convinced many Lebanese Shi'a who had not been active 
supporters of Hezbollah that the group cared more about their needs 
than the Lebanese Government did.
    Among the cadre of young militants who founded Hezbollah a common 
denominator was a commitment to the doctrine of the ``Rule of the 
Jurisconsult (wilayat al-faqih in Arabic, or velayat-e faqih in 
Persian), the idea that highly qualified cleric should be the ultimate 
authority in an Islamic state. Therefore, their loyalty was directed to 
Ayatollah Ruhollah Khomeini. Indeed, Hezbollah was explicitly committed 
to the establishment of a system of Islamic rule in Lebanon. To this 
day, Hezbollah officially considers the Ayatollah `Ali Khamene'i (the 
successor to Khomeini) as their ultimate authority.
    Yet, Hezbollah has to confront two realities in Lebanon: One is 
that there are 18 officially recognized sectarian groups in Lebanon and 
no single group constitutes a majority (the Shi'a comprise about one-
third of the total population). Therefore, the feasibility of ever 
establishing an Islamic state in the country is very slim. This is a 
reality that has been publically acknowledged by key Hezbollah 
officials, including Hasan Nasrallah.
    The second reality is that although Hezbollah enjoys broad support 
among Lebanese Shi'a, most Shi'a have no interest in living in an 
Islamic state modeled on Iran. This is quite obvious to anyone who has 
spent any time on-the-ground in Lebanon. In fact, while many Lebanese 
Shi'a support Hezbollah, most do not follow Ayatollah Khameine'i for 
religious guidance. The two most respected religious authorities for 
Lebanese Shi'a are Ayatollah `Ali Sistani, based in al-Najaf, Iran, and 
Ayatollah Muhammad Hussein Fadlallah, based in the southern suburbs of 
Beirut. Fadlallah, it should be noted, expressed early skepticism of 
transforming Lebanon into an Islamic state, and also openly challenged 
the religious credentials of `Ali Khameine'i to provide religious 
guidance to Shi'i Muslims. (Fadlallah died on July 4, 2010. Since he 
was viewed as an open-minded and liberal thinker on a variety of 
topics, particularly women's issues, it is unlikely that followers will 
shift their loyalty to Khamene'i or even Sistani.)
    In my testimony, I emphasized that the solidarity of the Lebanese 
Shi'i community is an artifact of the events of the past few years, and 
especially the 2006 war, which is widely understood by the Lebanese 
Shi'a as an attack on their community and its institutions. I also made 
the point that another war is likely to harden this communal 
solidarity, not weaken it.
    In the 2009 Parliamentary elections, Hezbollah's Lebanese 
opponents, particularly in the Sunni Muslim community, were keenly 
effective in mobilizing anti-Hezbollah voters. I saw this myself in the 
city of Zahle and in the surrounding villages, where Sunni voters 
ensured that none of Hezbollah's electoral allies won any of the seven 
parliamentary seats that were at stake. There is no doubt that the 
Hezbollah-led incursion into West Beirut, in May 2008, hardened 
sentiments against Hezbollah, especially among the Sunnis. Nonetheless, 
among Shi'i voters, Hezbollah continued to attract impressive support.
    I underlined that there are competing voices in the Shi'i 
community, but in the present environment those voices are subdued. 
Over the course of Hezbollah's political life, it sometimes fought 
bloody battles with its rival, Amal. In addition, there are certainly 
secular groups and individuals that would like to minimize the role of 
religion in public life. I know secular Shi'i Muslims in Lebanon 
(including some who live in the southern suburbs of Beirut, which is 
Hezbollah's stronghold) who are deeply contemptuous of Hezbollah and 
who resent the group's influence. Some senior religious authorities 
have sided with Amal rather than Hezbollah, and others have adopted a 
more independent stance. Senator Risch asks specifically about al-
Sayyid `Ali al'Amin, the former mufti in Tyre. There is no question 
that al-Amin has a small constituency, but he is in position to 
challenge Hezbollah, and he is not likely to be able to do so in the 
foreseeable future.
    In my comments before the subcommittee I tried to emphasize that 
diverse voices are far more likely to emerge in an environment of 
reduced tension. So long as the threat of another war with Israel is 
visible on the horizon, Hezbollah's argument for its indispensability 
as a armed force is going to carry weight. (Of course, this also means 
that there is an incentive for Hezbollah to spark tension 
periodically.) I also expressed my skepticism of the Israeli military's 
capability to defeat Hezbollah, especially if wholesale destruction and 
slaughter in Lebanon is to be avoided.
    Since the 1990s, Hezbollah's orientation to fighting Lebanon has 
revealed a logic of calculated escalation and deterrence that is 
familiar to strategic theorists. In effect, what has developed are 
``rules of the game'' that are understood by Hezbollah and by its 
adversaries. These have been best analyzed by the Israeli scholar 
Daniel Sobelman. In effect, what emerges is a system (formalized in 
1993 and 1996) that promises retaliation if the opponent crosses ``red 
lines.'' I understand Nasrallah's recent comments about attacking 
Israeli vessels in the Red Sea in that context.
    The existence of these ``rules'' does not preclude miscalculation, 
which was dramatically illustrated in 2006 when Hasan Nasrallah and his 
colleagues miscalculated the Israeli response to the their cross-border 
raid to capture Israeli soldiers.
    As for the role of Hezbollah's activities outside of Lebanon, 
notably in Iraq or Azerbaijan, a succinct answer is appropriate. In 
Iraq, the evidence clearly shows that Hezbollah elements have 
periodically collaborated with the IGRC in Iran-based training of 
insurgents, as well as equipping insurgents some Shi'i insurgents with 
deadly munitions. I am not in a position to evaluate whether those 
activities continue.
    Detailed information on the 2008 incident in Azerbaijan is not 
available to my knowledge. There are some facts about the case that 
strike me as curious, especially the claim, by the Azerbaijan 
government that Hezbollah terrorists were working in cooperation with 
al-Qaeda, which I tend to doubt. It is certainly credible that the 
failed bombing of the Israeli Embassy in Baku was plotted as 
retaliation for the assassination of Imad Mughniyah.
    I withhold judgment for now on the arrests and trials in Egypt. The 
Egyptian security courts are known for dispensing arbitrary justice, 
and Egyptian Government claims should be approached cautiously. 
President Mubarak was apparently incensed by the rhetorical 
provocations of Hasan Nasrallah during and after the 2006 war, and I 
see the trials as payback, Egyptian-style.
    I thank Senator Risch for the opportunity to address his questions, 
as well as to further elaborate on the issues that I addressed in my 
testimony.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
